Cover: Cruz Bay, St. John, U.S. Virgin Islands, by Henry Segall ( Courtesy of Oflice of
       Insular Affairs)
                       MESSAGE FROM THE
                      INSPECTOR GENERAL

This Semiannual Report is the first to reflect accomplishments realized under my direction as
Inspector General for the Department of the Interior. These accomplishments are the
culmination of dedicated effort of our Audits and Investigations staff extending well beyond the
reporting period. I am proud of their work, particularly during a time of transition.

Throughout this reporting period, we have implemented many significant changes in our
organizational structure and in the way we do business. We have reorganized both our Audits
and Investigations offices, redirecting managerial responsibility to our field locations and
redistributing functional responsibilities more evenly. We have filled key senior management
positions, with an emphasis on both professional excellence and diversity. And we have
promoted many of our experienced and valued employees for whom promotion had been long
overdue.

With these enhancements comes a new emphasis on producing quality work-products quickly
and a new method of measuring our success. We are reformulating our approach to addressing
the most significant management issues in the Department. We have closed the traditional gap
between audits and investigations, forming a new partnership between these two offices where
auditors and investigators share information and conduct combined reviews of high priority, high
risk programs and operations. We have incorporated Departmental Government Performance
and Results Act performance goals and measures into the planning and scope of our audits and
investigations. And we have expanded our efforts to communicate our findings and
recommendations effectively - Tom both audits and investigations - to the Department, affected
bureaus and Congress.

I am confident that these organizational changes and operational enhancements give us the
foundation necessary to provide assistance in the resolution of existing management problems
and offer leadership to advance improvements in the operations and activities of the Department
of the Interior.




                                            Earl E. Devaney
                                            Inspector General



             Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
                                                              CONTENTS

                                                                                                                                                                 Page
Statistical Highlights ................................                                      ............                     ........                ......... II
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   ............                     ........                ......... 1
    OIG Organization and Mission ......................                                      ............            ........ ........                ......... 1
Sigmticant Audit Activities and Investigations ............                                  ............            ........ ........                ......... 4
    Bureau of Indian Affairs ...........................                                     ............            ........ ........                ......... 4
    Bureau of Reclamation ............................                                       ............            ........                         ......... 5
    InsularAreas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     ............            ........                         ......... 8
    Minerals Management Service ......................                                       ............            ........ ........                . . . . . . . . 10
    Multi-Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     ............            ........ ........                . . . . . . . . 13
    National Park Service .............................                                      ............            ........ ........                ........ 14
    Office of Surface Mining Reclamation and Enforcement                                     ............            ........ ........                ........ 14
    U.S. Fish and Wildlife Service . . . . . . . . . . . . . . . . . . . . .                 ............            ........ ........                ........ 16
    U.S. Geological Survey ...........................                                                                                                ........ 18

Appendices
1 - Summary of Audit Activities From October 1,1999, Through March 31,ZOOO ........................                                                                     19
2 - Reports Issued or Processed and Indirect Cost Proposals Negotiated
      During the 6-Month Period Ended March 31,ZOOO ............................................                                                                        20
      -1ntemalAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      20
      -ContractandGrantAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               21
      -SingleAumts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    22
      -1ndirectCostProposals.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            29
3 - Monetary Impact of Audit Activities From October 1, 1999? Through March 3 1,200O ..................                                                                 35
4 Non-Federal Funding Included in Monetary Impact of Audit Activities
      During the 6-Month Period Ended March 31,200O ............................................                                                                        36
5 - Audit Resolution Activities .................................................................                                                                       37
      - Table I - Inspector General Reports With Questioned Costs ....................................                                                                  37
      - Table II - Inspector General Reports With Recommendations That
         FundsBePutToBetterUse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  38
      - Table III - Inspector General Reports With Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . .                                            39
6 - Summary of Reports Over 6 Months Old Pending Management Decismns ............................                                                                       40
      -1ntemalAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      40
      -ContractandGrantAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               43
      -SingleAudits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   44
7 Summary of Internal Reports Over 6 Months Old Pending Corrective Action .........................                                                                     48
8 - Statutory and Adminis!xative Responsibdihes ..................................................                                                                      53
9 - Cross-References to the Inspector General Act .................................................                                                                     54




                       Semiannual Report to the Congress: October 1,1999 - March 3 1,200O                                                                                i
                             STATISTICAL HIGHLIGHTS

Audit Activities
     ReportsIssued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          ........        ........        ........        . . . . . . . . 28
       - Internal Audits ...............................                                          ........        ........        ........        . . . . ..2 1
                                                                                                                                                               1
       Contract and Grant Audits ......................                                           ........        ........        ........        I

     Single Audits Processed ...........................                                          ........        ........        ........        _.           159
     IndIrect Cost Proposals Negotiated ...................                                       ........        ........        ........        1       4      4

Impact of Audit Activities - (Dollar Amounts in Millions)
     Total Monetaly Impact ............................                                           ........        ........        ........      $245.0
       - Questioned Costs .............................                                           ........        ........        ........    $13.8
       Recommendations That Funds Be Put To Better Use                                            ........        ........        ........   $183.7
       - Lost or Potential Additional Revenues .............                                      ........        ........        ........    $47.5
     Internal Audit Recommendations Made ...............                                          ........        ........        ........          102
     Internal Audit Recommendations Resolved ............                                         ........        ........        ........ 8          8

Investigative Activities
     CasesClosedThisPeriod . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 179
     New CasesOpened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93
     Hotline Calls Received .................................................................. 1,854

Impact of Investigative Activities
     Indictments/Infonnations ..............                                                                                                      . . . . . . . . 17
     Convictions .........................                                                                                 ,...                   ........ 12
     Sentencings . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                ........ 12
       - Jail .............................                                         ,...                                                          203 months
       - Probation/Supervised Release ........                                                                                                    612months
       -Community Service ...............                                                                                                         1,679 hours
       Criminal JudgementsiRestitutions ....                                                                                                             $602,364

Criminal Investigative Activities
     Criminal Cases Referred for Prosecution This Period                                                                                          2                8
     C r i m i n a l    C a s e s     D e c l i n e d .                                                                                           2                2

Administrative Investigative Activities
     Administrative                           Actions                                                                                                         2 0

Civil Investigative Activities
     C i v i l     R e f e r r a l s                                                                                         ........ ............ 4
     C i v i l  D e c l i n a t i o n s                                                                                      ........ . . . . . . . . . . . .
     C i v i l R e c o v e r i e s ( 5 )                                                                                     ........       $136,537,28:

Administrative Actions Taken by Bureaus
     Removals ..,,.,......._..,,,..........,,,..._...                                                                        ........        ............          2
     R   e     s  i   g    n     a     t   i    o   n     s ,...                                                             ........        ............          2
     Employee Suspensions (Totaling 142 days)                                                                                ........        ............
     R e p r i m a n d s / C o u n s e l i n g                                                                               ........        ............          :
     G e n e r a l      P o l i c y        A c t i o n s                                                                     ........        ............          3
     Administmtwe Recoveries/Restitutions (Totaling $1,448)                                                                  ........        ............          2


ii                     Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
                             INTRODUCTION

OIG Organization and Mission
w      orking with a budget of $26 million, the Office of Inspector General (OIG) has 248
       employees assigned to 13 offices throughout the United States and the insular areas, in
addition to Washington, D.C. The OIG staff is tasked with providing policy direction for and
conducting audits, investigations, and other activities in the Department of the Interior (DOI).
To this end, the OIG has established the following constructive goals and performance measures
in its fiscal year 2000 annual performance plan:

Goal   Assist DO1 in the identification, elimination, and prevention of operational and
       management weaknesses that subject DOI to fraud, waste, abuse, and mismanagement

       0 Verify and coordinate bureau program implementation of audit and investigative
       recommendations and resolution of issues on the most serious operational and
       management weaknesses.

       l Conduct a comprehensive audit/investigative review of high priority, high risk DOI
       programs or operations and coordinate with management officials the implementation of
       risk resolution.

       l  Increase coordination and exchange information between Audits and Investigations
       and initiate audits and investigations pursuant to exchanged information.

Goal   Use audit and investigative activities to achieve improvements in bureau programs and
       operations, thereby promoting efficiency, economy, and effectiveness in DOI.

       @Provide assessments for selected DO1 policies, directives, processes, or operations to
       identify potential weaknesses in bureau performance and results and implementation of
       solutions with management officials,

       *Identify and assess selected bureau Government Performance and Results Act
       (GPRA) goals and measures in all audit and investigative activities; relate back to
       corrective action plans, reported commitments, prior recommendations, or other planned
       management actions; and recommend and coordinate changes or additions/deletions to
       GPRA goals and measures.



            Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O                  1
                                                                                                     I



OIG also provides DOI with independent and objective reviews of the integrity of DO1
operations. OIG is the primary authority to ensure quality, coverage, and coordination of audit
and investigative services between DO1 and other Federal, state, and local governmental
agencies. The Inspector General reports directly to the Secretary of the Interior on these matters
and is required to keep both the Secretary and the Congress fully and currently informed about
problems and deficiencies relating to the administration of DO1 programs and operations and the
necessity for corrective action.

In addition to the requirement for semiannual reporting to the Secretary of the Interior and the
Congress, OIG’s mission encompasses a wide array of statutory and administrative audit and
investigative responsibilities. OIG also conducts audits and investigations responsive to requests
made by DO1 and the Congress.

Furthermore, OIG responsibilities extend to the insular areas of Guam, American Samoa, the
U.S. Virgin Islands, the Commonwealth of the Northern Mariana Islands, the Federated States of
Micronesia, the Republic of the Marshall Islands, and the Republic of Palau.

OIG’s organization and locations relative to these responsibilities are represented on the chart
that follows on page 3.




2            Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
              Office of Inspector General, Department of the Interior


                                               I     Inspector General
                                                             “ty IG
                                                                         I




                                                               i


I   Assistant Inspector
    General for Audits
       Deputy AIG
                          I   I
                                      Assistant Inspector
                                   General for Mgt. & Policy
                                         Deputy AlG




                                   Division of Information
                                   Resources Management
    Sacramento, CA
                                        Division of
                                      Human Resources
                                         Division of
                                                                                 Albuquerque, NM
                                    Financial Management
                                    Division of Acquisition
                                  and Management Operations
                                                                             I    Eastern Region 1
                                     OIG Training Officer                         Arlington, VA
                                                                                   Atlanta, GA
                                                                                 New Orleans, LA
                                                                                   St. Paul. MN  t
          SIGNIFICANT AUDIT ACTIVITIES
              AND INVESTIGATIONS



                                   Bureau of Indian Affairs


Individuals Sentenced in Embezzlement Scheme
    obin Hatfield, former Executive Director of the Caddo Indian Housing Authority, and Darrell
RB urrell, a friend of Hatfield’s, devised a scheme to embezzle funds from the Housing
Authority by disbursing checks in payment for work ostensibly performed on housing
improvement projects. The contracts for the work were fictitious, and the disbursements were
made payable to tiiends. Burrell was sentenced in the U.S. District Court for the Western
District of Oklahoma to 21 months of imprisonment and 36 months of supervised release.
Hatfield had been sentenced earlier to 7 months of imprisonment and 36 months of supervised
release and was ordered to perform 208 hours of community service. Hatfield and Burrell were
ordered to make restitution totaling more than $60,000.

School Bus Mileage Inflated


0
     ffcials of Chief Leschi School, Inc., a tribal school of the Puyallup Tribe of Indians,
    Tacoma, Washington, agreed to pay the Government $4.5 million to resolve allegations that
the officials inflated mileage claims for buses used to transport students to school. Indian tribal
schools receive substantial funding from the Bureau of Indian Affairs (BIA), including
enrollment-based educational assistance funding, special education needs funding, and monies to
pay for the transportation of students to and from school. The fraudulent mileage inflation
scheme occurred between 1993 and 1998, when the Chief Leschi School submitted falsified
claims to BIA that overstated the number of school bus miles driven to transport students
between their homes and the school. The successful investigation and ensuing settlement
agreement in December 1999 were largely attributable to a team effort by OIG’s Office of
Investigations and its Office of Audits.




4            Semiannual Report to the Congress: October 1,1999 - March 31,200O
Funds Diverted for Personal Use
    wo OIG investigations culminated in the conviction of two former employees of the
T.            -
    Cmppewa Cree Tribe of Indians on the Rocky Boys Indian Reservation, Montana. The first
investigation revealed that Corrine S. Parisian, a former business manager, embezzled $65,021
corn a school district account by issuing 50 unauthorized checks for her personal use. Parisian
pled guilty in the U.S. District Court for the District of Montana to theft of Federal funds. She
was sentenced to 12 months of imprisonment and 36 months of supervised release. She was also
ordered to perform 200 hours of community service and to make restitution of $65,021.

A separate investigation disclosed that Patricia Lynn Morsette, former secretary/bookkeeper for
the Rocky Boys Utility Commission, issued unauthorized checks totaling more than $8,000 to
herself, her relatives, and various members of the Board of Directors for the Utility Commission.
Morsette subsequently pled guilty in the U.S. District Court for the District of Montana to
embezzlement and theft from an Indian tribal organization. She was sentenced to 36 months of
probation and was ordered to perform 100 hours of community service. Morsette was also
ordered to make restitution of more than $8,000 and to pay a tine of $500.

Conviction in Money Laundering Scheme Obtained

   he final defendant in a $2.6 million embezzlement and money laundering scheme at the
T  Oglala Lakota College, located on the Pine Ridge Indian Reservation, South Dakota, was
convicted at trial in U.S. District Court, Rapid City, South Dakota, in January 2000. Thomas
Lalley, former owner of Theodore’s Bar and Grill, Omaha, Nebraska, was convicted of
conspiracy to launder money. Lalley had been charged as a co-conspirator for his receipt of 73
stolen checks totaling $593,061. Lalley cashed the checks for a fee at his former business. BIA
provides millions of dollars annually to the Oglala Lakota College. Sentencing is pending.




Land Exchange Procedures Not Followed

    he Government’s interests were not adequately protected when the Bureau of Reclamation
T   (BOR) entered into a land exchange contract to acquire an agricultural easement adjacent to
Cascade Reservoir, near Boise, Idaho. Specifically, BOR did not prepare the required
environmental documentation or establish fair value for the approximately 278 acres adjacent to
the Reservoir.


             Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O                  5
The acquisition of the agricultural easement was intended to improve water quality by reducing
cattle grazing along the shoreline. Guidance on land exchanges is contained in the National
Environmental Policy Act, Federal appraisal standards, and DO1 and BOR manuals. BOR
offtcials said, however, that the land exchange as originally planned would not have required a
separate environmental assessment and that they considered the exchange to be fair because of
additional benefits accruing to the Government. To the contrary, an environmental assessment
was required because the scope of the acquisition had been expanded, and BOR did not use a
formal appraisal to establish the values of the properties.

Although no recommendations were made, OIG did suggest that BOR comply with applicable
requirements regarding land exchanges, obtain a Solicitor’s opinion on whether it has the
authority to administratively adjust the value of the land exchanges, and use appraisals prepared
in accordance with applicable appraisal standards. BOR generally concurred with these
suggestions and provided the documentation from the O&e of the Solicitor, Pacific Northwest
Region, stating that the land exchange contract that was reviewed had in fact been voided
because of “mutual mistakes of fact” regarding property boundaries and compliance with
environmental assessment requirements.

Improvements in Land Acquisition Transactions Needed

    OR generally conducted its land acquisition activities in accordance with applicable laws and
B   regulations and paid a fair price for the land acquired. BOR may be hindered, however, in
using nonprofit organizations effectively to acquire land needed to mitigate the environmental
impacts of its water development projects, and it did lose the opportunity to purchase certain
water rights and some land with water rights because it failed to act in a timely manner. These
weaknesses occurred because BOR had not developed guidelines or established other criteria for
conducting land acquisition transactions with nonprofit organizations. Specifically, BOR had not
established formal criteria detailing the respective roles and responsibilities of each party or
established the bases for reimbursing the nonprofit organization for acquisition-related expenses.

BOR agreed with the OIG recommendation to develop guidance for conducting land acquisitions
with the assistance of nonprofit organizations. The recommendation is considered resolved.

Water Contractors’ Proposal Not Acceptable

     ad BOR accepted the proposal made by certain Central Valley Project water contractors to
H    modtfy the amount and computation of deficit obligations owed the Government, an
unwarranted Federal subsidy would have accrued to the Project’s water contractors. OIG
reviewed 12 of the Project’s 5 1 municipal and industrial water contractors and determined that
their repayment obligation would have been reduced by about $114 million for construction and
operation and maintenance and that future interest revenues would have been reduced by
approximately $54 million. Acceptance of this proposal could have had precedent-setting
impacts on financing and cost-recovery efforts of the Government and could have cost the
Government billions of dollars.


6            Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
DO1 and BOR policy requires water contractors to repay the actual construction and financing
costs attributable to municipal and industrial water supplies. BOR policy requires an annual
accounting for any deficit balances to enable BOR to recover those costs in the future. In
authorizing water projects under Reclamation law, the Congress has historically provided
subsidies to irrigation water contractors but not to municipal and industrial water contractors.
The Congress has not authorized deficits incurred in operating water projects to be subsidized by
the Government.

BOR agreed with two recommendations to formally reject the water contractors’ proposal and
inform the appropriate Congressional committees of any BOR decisions that would significantly
reduce the amount of costs to be recovered from the water contractors. It also agreed with the
recommendation to properly account for the deficit amount (that is, $190 million) associated
with the Project’s municipal and industrial water contractors and to disclose this accounting in
BOR’s financial statements, begnming with the statements for fiscal year 1999. Based on the
response, the report’s three recommendations are considered resolved.

Financing Costs on Water Projects Not Recovered
    lthough previously agreed to, BOR had not taken sufficient actions to implement
A   recommendations made in an August 1992 OIG report on repayment of municipal and
industrial water supply investment costs. Therefore, it will not recover financing costs of about
$217,000 annually on 4 of 12 projects reviewed that provide water for irrigation and municipal
and industrial purposes. It has also lost the opportunity to recover financing costs of about
$2.3 million associated with water use conversions on six projects identified in the 1992 report.
BOR did not have sufficient procedures and controls to identify changes in water use and ensure
that an equitable portion of the Government’s costs of financing project facilities was recovered.
In addition, BOR had not completed four of five agreed-upon actions established by the Office
of Policy, Management and Budget to ensure that the Government fully recovered the costs of
financing the municipal and industrial water supply facilities.

BOR agreed with the three recommendations requiring it to establish procedures and periodically
review annual project water use, to complete the action items the Office of Policy, Management
and Budget had established to resolve the recommendations listed in our August 1992 report, and
to report the lack of procedures for identifying water conversions as a material weakness if it
does not complete its efforts to establish procedures. The recommendations are considered
resolved.




             Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O                    7
GUAM
Educational Funds Not Used for Educational Purposes

    he Government of Guam used $6.2 million of a $12.4 million contract payment earmarked
T   for educational purposes for such other purposes as the operating expenses of the Department
of Public Works and the Guam Waterworks Authority. Guam’s Department of Education also
used $35,075 for a trip unrelated to the contract and for expenses of other Governmental
agencies. Finally, the Department of Education failed to use contract funds of $3.5 million in a
timely manner. Guam’s Department of Defense Education Contract Office used contract hmds
under its control in conformance with the contract it had with the U.S. Department of Defense
(DOD). The Government of Guam, however, did not ensure that contract funds transferred to the
Public Service Recovery Fund and to the Department of Education’s General Fund were used for
contract purposes and in a timely manner. These deficiencies occurred because the Government
of Guam assumed that it no longer had to comply with the contract terms related to the use of
contract funds after the contract was terminated by DOD.

OIG made four recommendations to the Governor of Guam to ensure that DOD is reimbursed for
the funds spent for noneducational purposes, that controls are established to prohibit contract
funds from being used for operations when regular operating funds are not available, and that the
use of the remaining $3.5 million of DOD contract funds is monitored. In disagreeing with the
recommendations, the Governor of Guam stated that a Federal contracting officer authorized
Guam to use the funds for noneducational purposes. OIG found, however, that the contracting
officer had not made a final determination as to the allowability of the costs and that another
senior-level DOD official had stated that the funds were to be used for educational purposes.
Therefore, the recommendations are considered unresolved.

VIRGIN ISLANDS

Federal Grants Not Administered Effectively
   he University of the Virgin Islands had not been reimbursed timely for approximately
T.-$2 3 mtlhon m expenditures incurred against Federal grants awarded by DOI, the U.S.
Department of Agriculture, and the U.S. Department of Health and Human Services due to the
University’s tardy and inaccurate requests for reimbursement of the grants.


8            Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
Of the $2.3 million, $1.7 million was eventually reimbursed to the University and $600,000
remained outstanding. In its financial management system, the University appropriately
deposited and accounted for reimbursements of grant funds received through electronic transfers.
However, it incurred an unnecessary interest liability of about $16,000 to the Federal
Government because it had requested approximately $1.6 million in excess of its immediate cash
needs. OIG also questioned costs of $53,000 related to DOI grants that were used for the
University’s new sports and fitness center, which was not covered by the grants. The Virgin
Islands Office of Management and Budget also disallowed claimed costs of an additional
$46,000 for the center. Deficiencies occurred because personnel responsible for the University’s
grants accounting function had unreasonable work loads and did not receive appropriate
training or adequate supervision on these duties.

OIG made 11 recommendations to the President of the University, including taking actions to
improve the record-keeping and reimbursement process related to grant awards and to provide
related training to employees. The University generally concurred with the recommendations, of
which nine were considered resolved. Additional information for the remaining two
recommendations has been requested.

Revenues Not Adequately Protected
    ollections and deposits of revenues of the Government of the Virgin Islands were at risk of
C.  misappropriation and/or theft. This determination was based on an audit that found
differences totaling $42,232 between the amounts collected and deposited by Government of the
Virgin Islands cashiers. The cashiers collect revenues for activities such as taxes, health service
charges, business licenses, building permits, vehicle registration, and drivers licenses. The
cashiers did not comply with policies and procedures for collecting, depositing, or reporting the
revenues because the respective departments and agencies reviewed did not provide sufficient
oversight of cashier operations, cashiers did not follow established controls, and adequate
numbers of assistant collectors were not always designated or available.

OIG made nine recommendations to the Governor of the Virgin Islands regarding compliance
with existing policies and procedures for Governmental revenues. Based on the response, eight
recommendations are considered resolved and one recommendation unresolved, which was not
addressed in the response.




             Semiannual Report to the Congress: October 1,1999 - March 3 1,200O                   9
                        Minerals Management Service



Civil Penalty Cases Not Referred Appropriately

     ince enactment of the Oil Pollution Act of 1990, only 18 of the Minerals Management
s Servtce’s (MMS) 229 civil penalty cases against offshore oil and gas operators have been
referred by MMS to OIG for review. These 18 referrals resulted in one criminal prosecution and
two civil settlements by the Department of Justice. The civil penalty cases not referred included
violations such as a classified building not having a gas detection system installed and safety
devices being removed from or bypassed on oil well platforms. Because many suspected
violations were not referred, criminal enforcement authority has not been used effectively as a
deterrent to violators, and potential criminal violations have not been evaluated for prosecutorial
merit.

OIG recommended that the Director of MMS and the Assistant Inspector General for
Investigations (AIGI) establish more specific guidelines to determine cases meriting criminal
investigation and to provide training to personnel involved in the criminal referral process. OIG
also recommended that the AIGI provide more timely notification of the disposition of the cases
referred. MMS and the AIGI agreed with the report’s three recommendations, which are
considered resolved.

System for Tracking Allowance Reports on Oil Production Needs
Improvement

   n a followup audit of recommendations contained in an August 1994 report on MMS’s oil and
Irecommendations
   gas transportation allowances and gas processing allowances, OIG found that of the three
                    in the report, two recommendations which pertained to Federal and Indian gas
leases were no longer valid because the valuation regulations had been revised subsequent to the
report. OIG also found that royalty payors had deducted the appropriate amounts of oil and gas
transportation and processing allowances from royalties due. MMS was not maintaining an
accurate filing system, however, for tracking allowance reports for oil production on Indian
leases. Without this system, it is more difficult for MMS to provide information from allowance
reports to Indian tribes.




10            Semiannual Report to the Congress: October 1, 1999 - March 3 I,2000
The report did not contain any recommendations. MMS agreed with the conclusions in the
report and prepared a document for filing, tracking, and distributing data and forms under the
new regulations presented at a January 2000 State and Tribal Royalty Audit Committee meeting.
The Committee accepted the strategy as presented.

Progress Made in Small Refiners Program, But Improvements Needed

R/1.MS had made progress in correcting deficiencies in the Small Refiners Program that were
      identified m a formal study conducted by MMS, state government, and industry officials.
MMS assists participants in the Program by selling a portion of the Federal Government’s
royalty oil to ensure that they have a constant supply. During 1999,5 of the 50 small refining
companies operating in the United States participated in the Program. MMS had improved the
process for determining the value of royalty oil and was redesigning the Program to ensure that
refiners paid royalties for oil volumes received. MMS has not, however, recovered Program
administration costs of about $1.9 million since fiscal year 1997. MMS also has not addressed
the anticipated increase in demand for oil from the refiners, nor has it conducted royalty oil sales
on a frequent or regular basis. These weaknesses occurred because MMS’s crude oil market
analysis did not include potential oil available to small refiners under the 20 percent set-aside
provision in offshore leases, and Program officials, in attempting to reduce the financial impact
on refiners, recovered only a portion of the administrative costs.

MMS agreed with the recommendation to conduct oil sales on a regular and more frequent basis,
but it did not agree with the recommendations to consider all sources of oil available to the small
refiners or to recover the full cost of administrating the Program. According to MMS, the 20
percent set-aside provision was not relevant to the process, and administrative costs associated
only with active leases should be recovered. One recommendation is considered resolved and
two recommendations unresolved.

Deficiencies in Financial Data Cited

    MS could not prepare financial statements for fiscal year 1998 because MMS’s Financial
M   Management Branch did not have accurate or complete financial data. Also, funds in the
DOI-established Interior Franchise Fund, a portion of which was operated by MMS, were
commingled with other MMS nonappropriated ftmds. According to Office of Management and
Budget guidance, agencies are to have internal controls that provide reasonable assurance that
accounting transactions are properly recorded, processed, and summarized to permit financial
statements to be prepared in accordance with Federal accounting standards. MMS personnel,
however, did not follow established internal controls, such as performing account reconciliations
and providing management oversight of the financial management accounting processes. MMS
did not establish adequate internal controls to ensure that transactions were properly classified
during the conversion to the new standard general ledger, nor did it have sufficient internal
control procedures to ensure proper accounting of the Interior Franchise Fund.




             Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O                  11
OIG made three recommendations relating to implementing adequate internal control procedures,
developing a cost accounting system to accumulate separately all Fund expenses and revenues,
and applying the accrual accounting method of transaction reporting to the Fund so that it is in
accordance with generally accepted accounting standards. MMS concurred with the report’s
recommendations, which are considered resolved.

Federal Funds Diverted

F  or over 2 years, former MMS accountant Robin Bland embezzled nearly $400,000 by causing
   the U S Treasury to make electronic transfers to both her bank accounts and those of her
associates. Bland created fictitious vendors that purportedly performed services and then
authorized payment for the projects. The OIG investigation identified 46 such transactions
ranging from approximately $2,000 to $39,000. Bland used the money to purchase cars, jewehy,
furniture, and vacations and to pay bills. In February 2000, Bland pled guilty in the U.S. District
Court for the Eastern District of Virginia. As part of her plea agreement, she voluntarily repaid
$266,000. Bland admitted that she misused her official position as an accountant and certifying
officer. The embezzlement occurred because checks and balances designed to separate
procurement functions between the other employees were not followed. Bland was able to
embezzle unspent appropriated funds that were being returned to the U.S. Treasury after 5 years
because DO1 did not routinely review the status of such funds after the closeout of each fiscal
year. This investigation was conducted by OIG’s Office of Investigations and its Office of
Audits. Sentencing is pending.

Oil Companies Settle Underpaid Royalty Claims for $121 Million

1,n two recent settlements, the U.S. Government was reimbursed a total of $121 million by two
  major oil companies for underpaid royalties. In the first settlement, Chevron, USA, Inc.,
agreed to pay $95 million to the Government in the largest underpayment of oil royalties
settlement to date. Under the False Claims Act, the Government alleged that for 11 years,
beginning in 1988, Chevron systematically underreported the value of oil that it extracted from
Federal and Indian lands. As a result, Chevron underpaid royalties due the Federal Government.

In the second settlement, Conoco, Inc., agreed to pay $26 million to resolve claims that it, too,
had underreported the value of oil that it extracted from Federal and Indian lands for 9 years,
beginning in 1988. The investigations of and the subsequent settlements with the oil companies
were jointly handled by the Office of the U.S. Attorney for the Eastern District of Texas and
OIG. Investigations of additional companies are ongoing.

Coal Companies Settle Underpaid Royalties Claim for $11 Million

IRochelle
 n October 1999, Peabody Holding, Inc., one of its subsidiaries, the Powder River Coal
  Company, and two former affiliate companies, the North Antelope Coal Company and the
          Coal Company, paid $11 million to resolve claims under the False Claims Act that
they underpaid coal royalties due MMS.


12           Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
The investigation resulted from an MMS audit that discovered a structured sale of coal among
the companies. The investigation found that under coal supply agreements, Peabody Holding,
Inc., and the Powder River Coal Company subsidiary used the structured coal sales transactions
between the affiliated companies to sell, buy back, and then resell Rochelle’s original coal
production. The coal was first sold by North Antelope to a power company before being resold
by the power company to Rochelle before delivery to Rochelle customers. The coal had been
produced from Federal leases in Wyoming and was subject to payment of royalties to MMS
based on the sales value received. Royalty payments to MMS did not include, as a value basis
for royalty determination, the additional consideration, or gross proceeds, received from the
subsequent coal sales made to third-party customers.




Underpayment of $43.02 Million in Royalties Possible
    oyalties for properties participating in the Stripper Oil Well Property Royalty Rate Reduction
R   Program may have been underpaid by as much as $43.02 million. Of the 20 properties
reviewed by OIG and by state auditors from California, New Mexico, and Oklahoma, 9
properties had inaccurate rates and 8 properties had unsupported rates. Federal regulations
require operators to accurately disclose all operations conducted on each well monthly. OIG
found, however, that the form prepared by the operators and used to support reduced royalty rate
determinations showed inaccurate production days or production days that could not be
supported by operator documentation.

Recommendation was made that the Bureau of Land Management (BLM) and MMS develop a
plan to ensure that operators of the largest benetitting properties are audited and establish a
policy for operators that do not have sufficient records to support their reduced royalty rates.
OIG also recommended that the two bureaus develop policies and procedures to address certain
issues when reviewing or preparing Program notifications and implement a procedure for review
of supporting documentation for future Program notifications submitted by operators. Both
BLM and MMS concurred with the report’s four recommendations, which are considered
resolved.

Computer Hacker Pleads Guilty
  kenna Iffih, a college student, was found to have used his home computer to illegally gain
ISpace
  access to a number of Federal computer systems, including those of DOI, the National Air and
       Administration, and DOD.


             Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O               13
Iftih intercepted log-in names and passwords, causing significant damage and delays to
electronic communications. Ifflh also defaced Web pages with hacker graphics.

In February 2000, he pled guilty in the U.S. District Court for the District of Massachusetts to
illegally intercepting electronic communications and to maliciously injuring communication
lines, connections with computers, and communications stations or systems. Sentencing is
pending.




False Medical Claims Filed
    aymond Seddon, a former U.S. Park Police officer, submitted false information to health care
R roviders, identifying his girlfriend as his wife, in order to obtain medical treatment paid for
under his Federal Employees Health Benefits Plan. In January 2000, a Federal judge in the U.S.
District Court for the District of Columbia ordered Seddon to pay civil damages of more than
$32,000 and a penalty of $5,000 for filing the false claims.




                           Office of Surface Mining Reclamation
                           and Enforcement

General Controls Over Automated Information Systems Inadequate

    he Office of Surface Mining Reclamation and Enforcement’s (OSM) automated information
T   systems are susceptible to risk for unauthorized access and tampering with OSM data, for
theft or destruction of OSM software and sensitive information, and for the loss of critical OSM
systems and functions in the event of a disaster or a system failure. Although Federal
regulations require Federal agencies to establish and implement computer security and
management internal controls to improve the protection of information in the agencies’ computer
systems, OSM’s general controls were inadequate.



14           Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
                                                                                                          I



For example, OSM did not have an automated information systems security program that
identified and addressed all risks affecting sensitive and financial data. It did not classify its
automated information systems resources to determine the level of security that should be
provided.

Furthermore, officials were not held accountable for failure to implement general controls to
protect sensitive data or for ensuring that such policies and procedures were followed.

OIG made 38 recommendations for OSM to improve its general controls over its automated
information systems, including a draft publication to ensure that OSM’s automated information
systems were adequately safeguarded. OSM concurred with all of the recommendations, of
which nine are considered resolved. Additional information for the remaining 29
recommendations has been requested.

Improvements in Complying With Indonesia Agreement Noted

    SM was spending funds in accordance with the requirements of a February 1995
0.”
 $3 2 million retmbursable agreement with the Bureau of Environment and Technology of the
Ministry of Mines and Energy, Republic of Indonesia. The agreement pertained to a project in
which OSM provided technical assistance to the Republic in an effort to control environmental
effects caused by mining activities in Indonesia. The project was funded by a $260.5 million
loan to the Republic from the International Bank for Reconstruction and Development. In a
December 1996 audit report, OIG had found that OSM could not support its calculation of
administrative overhead costs, that the amounts in its billing statement were not in agreement
with the amounts reported in the quarterly report to the Republic, and that coordination between
the Project Director and other program staff in OSM needed to be improved. The current review
found that OSM was making improvements in complying with the requirements of the
agreement, in that it had provided guidance on reporting project costs, on calculating
administrative overhead, and on preparing and reviewing quarterly reports.

Since OSM had taken actions to correct the deficiencies cited in our December 1996 report, no
new recommendations were made.




             Semiannual Report to the Congress: October 1,1999 - March 3 1,200O                      15
                           U.S. Fish and Wildlife Service



Deferred Maintenance Projects May Not Be Addressed
    unding for the U.S. Fish and Wildlife Service’s (FWS) deferred maintenance projects was not
F   spent solely on FWS’s highest priority deferred maintenance projects. FWS’s deferred
maintenance projects include repairs of buildings, roads, dikes, and water control structures that
support wildlife refugees and fish hatcheries. Of the $93.2 million available in fiscal years 1996-
1998 for deferred maintenance, $4.8 million was spent on nonmaintenance expenses such as
equipment replacements, administrative functions, and routine maintenance work. FWS also
spent deferred maintenance funds on expenses unrelated to the priority of the deferred
maintenance projects, contrary to FWS policy. For example, FWS spent fiscal year 1998
deferred maintenance funds of $9.6 million on regional administrative and engineering support,
small maintenance project set-asides, and contingencies such as cost overruns because it had not
allocated deferred maintenance funding on the basis of project priority and had not ensured that
deferred maintenance funding was used for its intended purpose.

FWS also needed to improve the reliability of its deferred maintenance data. The deferred
maintenance data prepared for FWS’s 1998 financial statements were not reliable because FWS
failed to survey all its assets to determine its deferred maintenance needs, had not fully
documented its estimated deferred maintenance costs, and had not established adequate controls
over deferred maintenance data.

To correct these deficiencies, OIG recommended that FWS ensure that deferred maintenance
funds are allocated to field offices on the basis of priority and that FWS implement controls over
the expenditure of deferred maintenance funding and controls over deferred maintenance data.
FWS agreed to implement five of six recommendations but did not concur with the
recommendation to discontinue the allocation of funds to small maintenance projects regardless
of project priority. This recommendation is unresolved.

Fees Collected and Used Improperly

     IG’s review of 46 refuges operated by FWS revealed that 5 refuges charged unauthorized
0    fees for the mitigation of damages associated with oil and gas exploration and then arranged
for the fees to be retained for refuge use. At the 46 FWS refuges visited or contacted, FWS set
fees for the use of refuge resources that provided a reasonable return to the Government.


16           Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
                                                                                                          a



However, five refuges in Louisiana and Texas assessed fees of more than $32.8 million during
fiscal years 1990-1998, depositing only $26 million into U.S. Treasury accounts, as required by
law. At the five refuges, FWS directed exploration companies to deposit fees of $1.5 million into
accounts maintained by the Fish and Wildlife Foundation, to remit fees of $5.1 million into the
refuges’ contributed funds accounts, and to pay fees of about $200,000 to vendors and grantees.
The refuges used the fees for expenses such as employee salaries, marine-related equipment and
repairs, computers, research grants, travel, fuel, a vehicle, and lumber.

                                                                   FWS officials said that they
                                                                   considered the assessment of such
                                                                   fees to be a “standard industry
                                                                   practice” and the receipts to be
                                                                   donations, gifts, or the payment of
                                                                   claims. OIG did not consider the
                                                                   receipts to be donations or gifts
                                                                   because they were not “conveyed
   A S&foot boat Iforefront) obtainedfrom the U.S. Customs Service gratuitously without consideration.”
   and repaired and maintained with mitigation fees. (office of    Neither were they payments of
   Inspector General photograph)                                   claims, because the amount of the
                                                                   damages had not been determined.
In addition, OIG questioned FWS’s retention of about $21.3 million from fiscal years 1990-1998
for the costs of administrating economic uses on the refuges because FWS had not determined
the amount of its administrative expenses in accordance with the provisions of the Refuge
Revenue Sharing Act.

FWS did not agree to take sufficient actions necessary to implement the report’s six
recommendations, which were referred to the Assistant Secretary for Policy, Management and
Budget for resolution.




              Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O                    17
                                                                                                 n




                          U.S. Geological Survey


Superfund Money May Not Be Recovered

    aving audited the U.S. Geological Survey’s (USGS) expenditures of $5.5 million of
H.  reimbursable expenditures of Environmental Protection Agency (EPA) Superfund money,
OIG questioned costs of $2.7 million, which were classified as cost exceptions ($925,000) and
unsupported costs ($1.8 million). Without adequate accounting for the expenditure of Superfund
money, EPA may not be able to recover these costs from parties responsible for the release of
hazardous substances into the environment. USGS did not maintain a system of detailed and
accurate records of reimbursable expenditures incurred on Superfund projects for fiscal years
1994-1997. USGS had, however, taken sufficient actions to resolve all costs questioned in the
audits of Superfund money for fiscal years 1987-1993.

USGS concurred with the report’s eight recommendations, which are considered resolved.




18          Semiannual Report to the Congress: October 1, 1999 - March 3 I,2000
                                          APPENDIX 1

                     SUMMARY OF AUDIT ACTMTIES FROM
                    OCTOBER 1,1999, THROUGH MARCH 31,200O
                                   AUDITS PERFORMED BY:
                                               OTHER
                                             FEDERAL         NON-FEDERAL
                                             AUDITORS          AUDITORS
                                          (With Review and   (With Review and
                                            Processing by     Processing by
                          OIG STAFF           OIG Staffj        OIG Staff)

                         Internal and      Contract and
                        Contract Audits    Grant Audits        Single Audits         TOTAL

REPORTS ISSUED TO:




Fish and Wildlife




INDIRECT COST PROPOSALS NEGOTIATED FOR:

Indian Tribes nod
O~gaId&lODS                  107                 0                   0
Insulrr Areas                  2                 0                   0

State Agencies                35                 0                   0

  Subtotal                   144                 0                   0

    TOTAL                    167                 5                 159




                Semiannual Report to the Congress: October 1,1999 - March 3 1,200O           19
                                    APPENDIX 2

REPORTS ISSUED OR PROCESSED AND INDIRECT COST PROPOSALS
     NEGOTIATED DURING THE 6-MONTH PERIOD ENDED
                     MARCH 31,200O




INTERNAL AUDITS                INSULAR AREAS                    MINERALS
                                                                MANAGEMENT
BUREAU OF                      Guam                             SERVICE
RECLAMATION                    00-I-172 U.S. DEPARTMENT         00-I-243 CRIMINAL
                               OF DEFENSE CONTRACT              REFERRAL PROCESS,
00-I-270 FOLLOWUP OF           FUNDS, DEPARTMENT OF
RECOMMENDATTONS                                                 OFFSHORE
                               EDUCATION, GOVERNMENT            CIVIL/CRIMINAL
CONCERNING REPAYMENT           OF GUAM (l/10/00)
OF MUNICIPAL AND                                                PENALTIES PROGRAM,
                               *$4290167&**%5431734
                                   , ,          , ,             MINERALS MANAGEMENT
INDUSTRIAL WATER
SUPPLY INVESTMENT                                               SERVICE (Z/29/00)
COSTS, BUREAU OF               U.S. Virgin Islands
RECLAMATION (3/3 l/00)                                          00-I-279 SMALL REFINERS
****$2,479,000                 00-I-166 INTERNAL                PROGRAM, MINERALS
                               CONTROLS OVER CASHIER            MANAGEMENT SERVICE
00-I-280 JASPER LAND           OPERATIONS,                      (3/27/00) ****$1,900,000
EXCHANGE, BUREAU OF            GOVERNMENT OF
RECLAMATION (313 1100)         THE VIRGIN ISLANDS               00-I-290 OIL AND GAS
                               (l/3/00)                         TRANSPORTATION
00-I-281 PROPOSAL TO                                            ALLOWANCES
MODIFY THE MUNICIPAL           00-I-216 ADMINlSTRATION          AND GAS PROCESSING
AND INDUSTRIAL WATER           OF FEDERAL GRANTS,               ALLOWANCES, MINERALS
CONTRACTORS’ CAPITAL           UNIVERSITY OF THE VIRGIN         MANAGEMENT SERVICE
AND OPERATION AND              ISLANDS (Z/16/00)                (3/27/00)
MAINTENANCE DEFICIT            *52 ,597, 000 & **ts99,000
OBLIGATIONS ON THE                                              00-I-133 INTERNAL
CENTRAL VALLEY                 00-I-274 VERIFICATION OF         CONTROLS OVER THE
PROJECT, BUREAU OF             WATCH QUOTA DATA FOR             ACCOUNTING SYSTEM,
RECLAMATION (3/3 l/00)         CALENDAR YEAR                    FINANCIAL MANAGEMENT
*$168,000,000                  2000 SUBMITTED BY FIRMS          BRANCH, MINERALS
                               LOCATED IN THE U.S.              MANAGEMENT SERVICE
00-I-282 LAND                  VIRGIN ISLANDS (3/g/00)          (3/3 l/00)
ACQUISITION ACTMTIES,
BUREAU OF
RECLAMATION
(3/31/00)




20          Semiannual Report to the Congress: October 1,1999 - March 31,200O
MULTI-OFFICE                   OFFICE OF SURFACE                 U.S. GEOLOGICAL
                               MINING                            SURVEY
00-I-300 SUPPORTING            RECLAMATION AND
DOCUMENTATION FOR                                               00-I-171 ACCOUNTING
OPERATORS
                               ENFORCEMENT
                                                                FOR REIMBURSABLE
PARTICIPATING IN THE                                            EXPENDITURES
STRIPPER OIL WELL              00-I-138 GENERAL AND
                                                                OF ENVIRONMENTAL
PROPERTY ROYALTY RATE          APPLICATION CONTROLS
                                                                PROTECTION AGENCY
REDUCTION PROGRAM,             OVER AUTOMATED
                                                                SUPERFUND MONEY FOR
BUREAU OF LAND                 INFORMATION SYSTEMS,
                                                                FISCAL YEARS 1994
MANAGEMENT AND                 OFFICE OF SURFACE
                                                                THROUGH 1997, WATER
MINERALS MANAGEMENT            MINING RECLAMATION
                               AND ENFORCEMENT                  RESOURCES DIVISION,
SERVICE (3127100)                                               U.S. GEOLOGICAL SURVEY
****$43,200,000                (12121199)
                                                                (l/18/00) **$2,718,981 &
                                                                ***$1,793,842
NATIONAL PARK                  00-I-191 OFFICE OF
                               SURFACE MINING
SERVICE                        RECLAMATION AND                   CONTRACT AND
                               ENFORCEMENT FINANCIAL
00-I-25 MANAGEMENT             CONTROLS OVER THE
                                                                 GRANT AUDITS
ISSUES IDENTIFIED              TECHNICAL ASSISTANCE
DURlNG THE AUDIT OF            AGREEMENT WITH THE               BUREAU OF INDIAN
NATIONAL PARR SERVICE          REPUBLIC OF INDONESIA            AFFAIRS
FINANCIAL STATEMENTS           (l/3 l/00)
FOR FISCAL YEARS 1998
                                                                00-E-267 LOWER BRULE
AND 1997 (10/15/99)
                               U.S. FISH AND                    SIOUX TRIBE, COSTS
                               WILDLIFE SERVICE                 INCURRED UNDER
OFFICE OF THE                                                   BUREAU OF INDIAN
SECRETARY                                                       AFFAIRS CONTRACT
                               00-I-50 MISCELLANEOUS
                               RECEIPTS, U.S. FISH AND          NO. A002506614 FOR THE
00-I-168 AGREED-UPON           WILDLIFE SERVICE                 PERIOD ENDED MAY 1999
PROCEDURES ON                  (I l/9/99) *$6,800,000           (319100)
EMPLOYEE
WITHHOLDINGS/                  00-I-112 U.S. FISH AND           BUREAU OF LAND
EMPLOYER                       WILDLIFE SERVICE
CONTRIBUTIONS
                                                                MANAGEMENT
                               ACTIONS REGARDING THE
REPORTED FOR                   BALCONES CANYON LAND
RETIREMENT AND HEALTH                                           00-E-223 IBM GLOBAL
                               PRESERVE (12/l 3199)             GOVERNMENT
AND LIFE INSURANCE
BENEFITS AND ON THE                                             INDUSTRY FEDERAL
                               00-I-226 DEFERRED                INTEGRATION
SUPPLEMENTAL                   MAINTENANCE, U.S. FISH
SEMIANNUAL                                                      ORGANIZATION, COSTS
                               AND WILDLIFE SERVICE             INCURRED UNDER
HEADCOUNT REPORT               (3/10/00)
SUBMITTED TO THE                                                BUREAU OF LAND
OFFICE OF PERSONNEL                                             MANAGEMENT FOR
MANAGEMENT (12129199)                                           CALENDAR YEAR 1996
                                                                (2/l 1100)




           Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O        21
                                                                                           n




                              U.S. FISH AND                     00-A-30 TURTLE
BUREAU OF                                                       MOUNTAIN BAND OF
RECLAMATION                   WILDLIFE SERVICE                  CHIPPEWA INDIANS,
                                                                FISCAL YEAR ENDED
00-E-266 WEEKLY               00-E-246 U.S. FISH AND            SEPTEMBER 30, 1997
BROTHERS                      WILDLIFE SERVICE                  (10122199)
CONSTRUCTION,                 FEDERAL AID GRANTS AND
INC., CLAIM FOR               PAYMENTS AWARDED TO               00-A-33 HOONAH INDIAN
EQUITABLE ADJUSTMENT          VERMONT AGENCY OF                 ASSOCIATION, FISCAL
SUBMITTED UNDER               NATURAL RESOURCES,                YEAR ENDED
BUREAU OF                     DEPARTMENT OF FISH AND            DECEMBER 3 1,1996
RECLAMATION CONTRACT          WILDLIFE, FOR 2 FISCAL            (11/15/99)
NO. 1425-98.CC-10.07680       YEARS ENDED JUNE 30,1997
(3/8/00)                      (2125100)                         00-A-34 WOUNDED KNEE
                                                                DISTRICT SCHOOL, FISCAL
00-E-299 OHM                   SINGLE AUDITS                    YEAR ENDED JUNE 30, 1997
REMEDIATION, INC.                                               (11115199)
(FORMERLY RUST
REMEDIAL SERVICES,            BUREAU OF INDIAN                  00-A-36 SAN JUAN
INC.), COSTS BILLED           AFFAIRS                           PUEBLO, FISCAL YEAR
UNDER BUREAU OF                                                 ENDED DECEMBER 3 1, 1997
RECLAMATION CONTRACT           00-A-5 CROW CREEK                (11/15/99)
NO. 1425.3-CC-30-10340         SIOUX TRIBE, FISCAL YEAR
(3124100)                      ENDED SEPTEMBER 30,1997          00-A-37 BIG PINE PAIUTE
                               (10/8/99)                        TRIBE OF THE OWENS
00-E-316 RODRIGUEZ                                              VALLEY, FISCAL YEAR
GENERAL CONTRACTORS,           00-A-6 YOMBA SHOSHONE            ENDED DECEMBER 31, 1995
COSTS CLAIMED UNDER            TRIBE, FISCAL YEAR ENDED         (10/22/99)
BUREAU OF                      DECEMBER31, 1997(10/8/99)
RECLAMATION CONTRACT                                            00-A-38 BIG PINE PAIUTE
NO. 1425-5-CC-32-2610          00-A-27 CATHOLIC                 TRIBE OF THE OWENS
(3/24/00) *$486,479            COMMUNITY SERVICES OF            VALLEY, FISCAL YEAR
                               SOUTHERN ARIZONA, INC.,          ENDED DECEMBER 3 1, 1996
                               FISCAL YEAR ENDED                ( 1 O/22/99)
NATIONAL PARK
                               JUNE 30, 1997 (10/22/99)
SERVICE                                                         00-A-39 BEAR RIVER
                               00-A-28 SOKAOGON                 BAND OF THE
00-E-289 JCM CONTROL           CHIPPEWA COMMUNITY,              ROHNERVILLE
SYSTEMS, INC., COSTS           MOLE LAKE BAND, FISCAL           RANCHERIA, FISCAL YEAR
BILLED FROM JANUARY 1,         YEAR ENDED                       ENDED SEPTEMBER 30,
1997, THROUGH JULY 16,         SEPTEMBER 30,1996                1995 (11119199)
1999, UNDER NATIONAL           ( 1 O/22/99)
PARK SERVICE CONTRACT                                           00-A-40 BEAR RIVER
NO. 1443CX300094906            00-A-29 OGLALA SIOUX             BAND OF THE
(3124100) **$83,125            PARKS AND RECREATION             ROHNERVILLE
                               AUTHORITY, FISCAL YEAR           RANCHERIA, FISCAL YEAR
                               ENDED DECEMBER 31,1998           ENDED DECEMBER 3 1, 1996
                               (10122199)                       (11/19/99)




22         semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
00-A-66 NORMAN                  00-A-78 PUEBLO DE SAN            00-A-106 TONKAWA TRIBE
INDEPENDENT SCHOOL              ILDEFONSO, FISCAL YEAR           OF OKLAHOMA, FISCAL
DISTRICT NO. 29, FISCAL         ENDED DECEMBER 31,1996           YEAR ENDED
YEAR ENDED JUNE 30,1998         (1211199)                        SEPTEMBER 30,1997
(1115199)                                                        (12/7/99)
                                00-A-79 CEDARVILLE
00-A-70 SITKA TRIBE OF          RANCHER& FISCAL YEAR             00-A-107 WINGATE HIGH
ALASKA, FISCAL YEAR             ENDED DECEMBER 31, 1996          SCHOOL BOARD OF
ENDED DECEMBER 3 1, 1997        (I l/5/99)                       EDUCATION, FISCAL YEAR
(11118199)                                                       ENDED JUNE 30,1997
                                00-A-80 CEDARVILLE               (12/7/99) **$32,155
00-A-71 FORT MOJAVE             RANCHERIA, FISCAL YEAR
ENDIAN TRIBE, FISCAL            ENDED DECEMBER 3 1,1996          00-A-108 HOPLAND BAND
YEAR ENDED                      (11/5/99)                        OF POMO INDIANS, FISCAL
SEPTEMBER 30, 1996                                               YEAR ENDED
(1 l/5/99) **$5,086             00-A-81 MANIILAQ                 DECEMBER 31,1997
                                ASSOCIATION, FISCAL              (11122199) **$66,000
00-A-72 BUENA VISTA             YEAR ENDED
RANCHERIA BAND OF               SEPTEMBER 30,1997                00-A-109 SEMINOLE
ME-WUK INDIANS, FISCAL          (11/5/99) **S11,728              NATION OF OKLAHOMA,
YEAR ENDED                                                       FISCAL YEAR ENDED
DECEMBER 3 1, 1996              00-A-93 HAVASUPAI                SEPTEMBER 30, 1995
(1 l/5/99)                      TRIBE, FISCAL YEAR ENDED         (1217199)
                                SEPTEMBER 30, 1994
 00-A-73 MAKAH TRIBAL           (11/16/99) **$503,428            00-A-121 1854 AUTHORITY,
COUNCIL, FISCAL YEAR                                             FISCAL YEAR ENDED
ENDED                           00-A-98   D -Q U~VIVERSITY,      DECEMBER 3 I,1997
SEPTEMBER 30,1998               FISCAL YEAR ENDED                (1212199)
(1 l/19/99)                     JUNE30, 1997 (11119199)
                                                                 00-A-122 MN1 SOSE
00-A-74 MORONGO BAND            00-A-102 WHITE EARTH             INTERTRIBAL WATER
OF MISSION                      RESERVATION, FISCAL              RIGHTS COALITION, INC.,
INDIANS, FISCAL YEAR            YEAR ENDED                       FISCAL YEAR ENDED
ENDED JUNE 30,1996              SEPTEMBER 30,1998                DECEMBER 3 1, 1997
(11119199)                      (11119/99)                       (1212199)

00-A-75 NATIVE VILLAGE          00-A-103                         00-A-124 DUCKWATER
OF MEKORYUK IRA                 SHOSHONE-BANNOCK                 SHOSHONE TRIBE, FISCAL
COUNCIL, FISCAL YEAR            SCHOOL. FISCAL YEAR              YEAR ENDED
ENDED DECEMBER 31,1996          ENDED JiJNE 30,1997              DECEMBER 3 1, 1997
(11/19/99) **$27,885            (1217199)                        (12/2/99)

00-A-76 BIG PINE                00-A-104 SANTO DOMINGO           00-A-127 SANTO
PAIUTE TRIBE OF THE             TRIBE, FISCAL YEAR ENDED         DOMINGO TRIBE, FISCAL
OWENS VALLEY, FISCAL            SEPTEMBER 30, 1997               YEAR ENDED
YEAR ENDED                      (1 l/22/99)                      SEPTEMBER 30, 1998
DECEMBER 3 1, 1997                                               (12/7/99) **$25,000
(11119/99)                      00-A-105 OGLALA LAKOTA
                                COLLEGE, FISCAL YEAR             00-A-128 MICCOSUKEE
00-A-77 PUEBLO DE SAN           ENDED SEPTEMBER 30,1998          CORPORATION, FISCAL
ILDEFONSO, FISCAL YEAR          (12/7/99)                        YEAR ENDED
ENDED DECEMBER 31,199s                                           SEPTEMBER 30,1998
(1211199)                                                        (12/Z/99)



            Semiannual Report to the Congress: October 1, 1999 - March 3 I,2000          23
                                                                                             q



00-A-129 LEECHLAKE               00-A-155 POTTER VALLEY            00-A-185 LOWER BRULE
RESERVATION, FISCAL              LITTLE LAKE POMO TRIBE,           SIOUX TRIBE, FISCAL
YEAR ENDED                       4 FISCAL YEARS ENDED              YEAR ENDED
SEPTEMBER 30,1996                DECEMBER 3 1, 1996                SEPTEMBER 30,1998
(12/Z/99)                        (l/5/00) **$9,623                 (l/13/00)

00-A-130 SECOND MESA             00-A-159 COLORADO RIVER           00-A-187 THREE
DAY SCHOOL, FISCAL               INDIAN TRIBES, FISCAL             AFFILIATED TRIBES,
YEAR ENDED JUNE 30,1998          YEAR ENDED DECEMBER               FISCAL YEAR ENDED
(l/5/00)                         31, 1997 (12/17/99)               SEPTEMBER 30, 1997
                                                                   (l/14/00) **$123,570
00-A-131 AHMIUM                  00-A-161 GOGEBIC
EDUCATION, INC., FISCAL          COUNTY, MICHIGAN,                 00-A-200 ABSENTEE
YEAR ENDED JUNE 30,1998          FISCAL YEAR ENDED                 SHAWNEE TRIBE OF
(l/5/00)                         DECEMBER 31,1998                  OKLAHOMA, FISCAL YEAR
                                 (12117199)                        ENDED DECEMBER 31,1998
00-A-132 ROCK POINT                                                (l/28/00)
SCHOOL, INC., FISCAL             00-A-162 PIERRE INDIAN
YEAR ENDED JUNE 30, 1998         LEARNING CENTER, FISCAL           00-A-201 MN1 SOSE
(l/5/00)                         YEAR ENDED                        INTERTRIBAL WATER
                                 JUNE 30, 1997 (12117199)          RIGHTS COALITION, INC.,
00-A-133 SUQUAMISH                                                 FISCAL YEAR ENDED
TRIBE, FISCAL YEAR               00-A-163 LAGUNA PUEBLO            DECEMBER31, 1998
ENDED DECEMBER 3 1, 1998         DEPARTMENT OF                     (l/28/00)
(l/5/00)                         EDUCATION, FISCAL YEAR
                                 ENDED JUNE 30,1997                00-A-202 MANIILAQ
00-A-134 LOCAL INDIAN            (12/17/99) “$691,297              ASSOCIATION, FISCAL
EDUCATION, INC., FISCAL                                            YEAR ENDED
YEAR ENDED                       00-A-164 YSLETA DEL SUR           SEPTEMBER 30,1998
SEPTEMBER 30, 1997 (l/5/00)      PUEBLO, FISCAL YEAR               (l/28/00)
                                 ENDED DECEMBER 3 1,1997
00-A-135 ELY SHOSHONE            (12117199)                        00-A-204 MOHEGAN TRIBE
TRIBE, FISCAL YEAR                                                 OF INDIANS OF
ENDED DECEMBER 3 1,1997          00-A-165 SKAGIT SYSTEM            CONNECTICUT, FISCAL
(l/5/00)                         COOPERATIVE, FISCAL               YEAR ENDED
                                 YEAR ENDED                        SEPTEMBER 30, 1998
00-A-136 KOOTENAI TRIBE          DECEMBER 3 1,1998                 (l/28/00)
OF IDAHO, FISCAL YEAR            (12/17/99)
ENDED                                                              00-A-205 NATIVE VILLAGE
SEPTEMBER 30,1997                00-A-179 WASHOE TRIBE            OF TANANA, FISCAL
(l/5/00)                         OF NEVADA AND                    YEAR ENDED
                                 CALIFORNIA, FISCAL YEAR          SEPTEMBER 30, 1998
00-A-137 NORTHWEST               ENDED                            (1128100)
INTERTRIBAL COURT                DECEMBER 31, 1997 (l/7/00)
SYSTEM, FISCAL YEAR                                               00-A-206 DIBE YAZHI
ENDED                            00-A-180 EASTERN BAND            HABITIIN OLTA, INC.,
SEPTEMBER 30,1998                OF CHEROKEE INDIANS,             FISCAL YEAR ENDED
(l/5/00) **$116,161              FISCAL YEAR ENDED                JUNE 30, 1998 (l/28/00)
                                 SEPTEMBER 30, 1998
                                 (l/7/00)




24           Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
00-A-207 LOCAL INDIAN          00-A-233 BURNS PAIUTE             00-A-304 AK-CHIN
EDUCATION, INC., FISCAL        INDIAN TRIBE, FISCAL             INDIAN COMMUNITY,
YEAR ENDED                     YEAR ENDED                       FISCAL YEAR ENDED
SEPTEMBER 30,199E              DECEMBER 31, 1997                DECEMBER 3 1,1998
(l/28/00)                      (2/11/00)                        (3123100)

00-A-212 SHONTO                00-A-234 BURNS PAIUTE             00-A-305 SICANGU OYATE
GOVERNING BOARD OF             INDIAN TRIBE, FISCAL              HO, INC., FISCAL YEAR
EDUCATION, INC., FISCAL        YEAR ENDED                        ENDED JUNE 30,1998
YEAR ENDED JUNE 30, 1998       DECEMBER 31, 1998 (2/l l/00)      (3123100)
(l/28/00)
                               00-A-235 FALLON                   00-A-306 SCOTTS VALLEY
00-A-227 QUILEUTE              PAIUTE-SHOSHONE TRIBE,            BAND OF POMO INDIANS,
TRIBAL SCHOOL, FISCAL          FISCAL YEAR ENDED                 FISCAL YEAR ENDED
YEAR ENDED JUNE 30,1998        DECEMBER 3 1, 1997                DECEMBER 3 1, 1998
(2/l l/00) **$10,684           (2/l 1100)                        (3123100)

00-A-228 QUILEUTE              00-A-236 PUEBLO OF SAN            00-A-312 YERINGTON
TRIBAL COUNCIL,                FELIPE, FISCAL YEAR               PAIUTE TRIBE, FISCAL
FISCAL YEAR ENDED              ENDED DECEMBER 3 1,1997           YEAR ENDED
SEPTEMBER 30, 1997             (211 l/00)                        DECEMBER 31, 1998
(2/l l/00)                                                       (3124100)
                               00-A-238 CHOCTAW
00-A-229 QUILEUTE              NATION OF OKLAHOMA,               00-A-313 MINNESOTA
TRIBAL COUNCIL,                FISCAL YEAR ENDED                 CHIPPEWA TRIBE, FISCAL
FISCAL YEAR ENDED              SEPTEMBER 30,1998                 YEAR ENDED
SEPTEMBER 30,1998              (2/l 1100)                        SEPTEMBER 30,1998
(211 l/00)                                                       (3/24/00)
                               00-A-239 NATIONAL IRON
00-A-230 FORT                  WORKERS TRAINING                  00-A-314 COPPER RIVER
INDEPENDENCE INDIAN            PROGRAM FOR AMERICAN              NATIVE ASSOCIATION,
COMMUNITY OF PAIUTE            INDIANS, INC., FISCAL             INC., FISCAL YEAR ENDED
INDIANS, FORT                  YEAR ENDED                        SEPTEMBER 30, 1998
INDEPENDENCE                   SEPTEMBER 30, 1998                (3/24/00)
RESERVATION, FISCAL            (2/11/00)
YEAR ENDED                                                       00-A-315 FLANDREAU
DECEMBER 31,1998               00-A-240 SAULT STE.               SANTEE SIOUX TRIBE,
(2/11/00)                      MARIE TRIBE OF CHIPPEWA           FISCAL YEAR ENDED
                               INDIANS, FISCAL YEAR              DECEMBER31, 1997
00-A-231 TULE RIVER            ENDED DECEMBER 3 1,1998           (3/24/00)
TRIBAL COUNCIL, FISCAL         (2/11/00)
YEAR ENDED                                                       BUREAU OF LAND
SEPTEMBER 30,1996              00-A-252 SAC AND FOX              MANAGEMENT
(211 l/00)                     NATION OF OKLAHOMA,
                               FISCAL YEAR ENDED                 00-A-7 PLAQUEMINES
00-A-232 ASSINIBOFNE &         DECEMBER 31,1997                  PARISH GOVERNMENT,
SIOUX TRIBES, FISCAL           (2/25/00)                         FISCAL YEAR ENDED
YEAR ENDED                                                       DECEMBER 3 1, 1997
SEPTEMBER 30, 1997             00-A-254 FOND DU LAC              (10/S/99)
(2/l 1100)                     RESERVATION,
                               FISCAL YEAR ENDED
                               SEPTEMBER 30,1998
                               (2/25/00)


            Semiannual Report to the Congress: October 1,1999 - March 3 1,200O          25
00-A-31 UNIVERSITY OF             BUREAU OF                        INSULAR AREAS
MINNESOTA, FISCAL YEAR            RECLAMATION
ENDED JUNE 30, 1998
                                                                   American Samoa
(10122199)                        00-A-82 CALIFORNIA
                                  ASSOCIATION OF                   00-A-265 AMERICAN
00-A-32 DAWSON                    RESOURCE
COUNTY, MONTANA,                                                   SAMOA GOVERNMENT,
                                  CONSERVATION DISTRICTS           FISCAL YEAR ENDED
FISCAL YEAR ENDED                 AND CALIFORNIA
JUNE 30, 1998 (10/22/99)                                           SEPTEMBER 30, 1994
                                  RESOURCE CONSERVATION            (3/6/00) **$30,528
                                  FUND, FISCAL YEAR ENDED
00-A-63 TILLAMOOK                 DECEMBER 31, 1997
COUNTY, OREGON, FISCAL                                             Commonwealth of the
                                  (1 l/5/99)
YEAR ENDED JUNE 30, 1997                                           Northern Mariana
(1115199)                         00-A-123 WEST                    Islands
                                  RIVER/LYMAN-JONES
00-A-83 SOUTH FLORIDA             RURAL WATER SYSTEMS,             00-A-176
WATER MANAGEMENT                  INC., FISCAL YEAR ENDED          COMMONWEALTH
DISTRICT, FISCAL                  DECEMBER31,1998                  OF THE NORTHERN
YEAR ENDED                        (1212199)                        MARIANA ISLANDS,
SEPTEMBER 30,1997                                                  FISCAL YEAR ENDED
(1115199)                         00-A-126 MAXWELL                 SEPTEMBER 30,199s
                                  IRRIGATION DISTRICT,             (l/6/00) **$364,109
00-A-84 CLACKAMAS                 FISCAL YEAR ENDED
COUNTY, OREGON, FISCAL            DECEMBER 3 1,199s                00-A-331
YEAR ENDED JUNE 30, 1997          (12/2/99)                        COMMONWEALTH
(1 l/5/99)                                                         PORTS AUTHORITY,
                                  00-A-156 BELLE FOURCHE           FISCAL
00-A-85 GLACIER                   IRRIGATION DISTRICT,             YEAR ENDED
COUNTY, MONTANA,                  FISCAL YEAR ENDED                SEPTEMBER 30,1999
FISCAL YEAR ENDED                 DECEMBER 31,199s                 (3/30/00)
JUNE 30, 1997 (1115199)           (12/17/99)
                                                                   Federated States of
00-A-100 CUSTER                   00-A-250 PROVIDENT
COUNTY, MONTANA,                                                   Micronesia
                                  IRRIGATION DISTRICT,
FISCAL YEAR ENDED                 FISCAL YEAR ENDED
JUNE 30, 1998 (1 l/19/99)                                          00-A-117 COLLEGE OF
                                  DECEMBER 3 1, 1998               MICRONESIA LAND GRANT
                                  (Z/25/00)                        PROGRAM, FISCAL YEAR
00-A-203 SOUTH FLORIDA
WATER MANAGEMENT                                                   ENDED SEPTEMBER 30,
                                  00-A-302 EL PASO WATER           1998 (11129199)
DISTRICT, FISCAL YEAR             UTILITIES, FISCAL YEAR
ENDED SEPTEMBER 30,               ENDED FEBRUARY 28, 1998
1998 (l/28/00)                                                     00-A-139 FEDERATED
                                  (3/23/00)                        STATES OF MICRONESIA
                                                                   NATIONAL GOVERNMENT,
                                                                   FISCAL YEAR ENDED
                                                                   SEPTEMBER 30, 1998
                                                                   (12/10199) “$97,396




26             Semiannual Report to the Congress: October 1,1999 - March 31,200O
00-A-221 COLLEGE OF           00-A-1 11 GUAM ECONOMIC           U.S. Virgin Islands
MICRONESIA, FEDERATED         DEVELOPMENT
STATES OF MICRONESIA,         AUTHORITY,                        00-A-90 GOVERNMENT OF
FISCAL YEAR ENDED             FISCAL YEAR ENDED                 THE VIRGIN ISLANDS,
SEPTEMBER 30, 1998            SEPTEMBER 30,1998                 FISCAL YEAR ENDED
(219100)                      (1 l/19/99)                       SEPTEMBER 30, 1995
                                                                (1119199)
yap                           00-A-195 GOVERNMENT OF
                              GUAM, FISCAL YEAR
                              ENDED SEPTEMBER 30,1998
                                                                NATIONAL PARK
00-A-97 YAP STATE
PUBLIC SERVICE                (l/25/00) **$2,305,544            SERVICE
COPJ’ORATION, FISCAL
YEAR ENDED                    00-A-198 GUAM MASS                00-A-3 DURHAM, NORTH
SEPTEMBER 30,1997             TRANSIT AUTHORITY,                CAROLINA, FISCAL YEAR
(11119/99)                    FISCAL YEAR ENDED                 ENDED JUNE 30, 1997
                              SEPTEMBER 30,1998                 (10/E/99)
Guam                          (l/28/00)
                                                                00-A-65 BARDSTOWN,
                              00-A-199 GUAM                     KENTUCKY, FISCAL YEAR
00-A-9 GUAM
                              COMMUNITY COLLEGE                 ENDED JUNE 30,1998
COMMUNITY COLLEGE,
                              FOUNDATION, FISCAL YEAR           (1 l/5/99)
FISCAL YEAR ENDED
SEPTEMBER 30,1997             ENDED
                              SEPTEMBER 30,1997                 00-A-67 GRAND RAPIDS,
(10114199)
                              (l/28/00)                         MICHIGAN, FISCAL YEAR
                                                                ENDED JUNE 30,1998
00-A-23 GUAM ECONOMIC
                              Republic of the Marshall          (1 l/5/99)
DEVELOPMENT
AUTHORITY,                    Islands
                                                               00-A-68 DECATUR,
FISCAL YEAR ENDED
                              00-A-92 REPUBLIC OF              ALABAMA, FISCAL YEAR
SEPTEMBER 30,1997
(10119199)                    THE MARSHALL ISLANDS,            ENDED SEPTEMBER 30,
                              FISCAL YEAR ENDED                1998 (11/5/99)
00-A-41 GUAM                  SEPTEMBER 30,199s
                              (11/15/99) **$576,631             00-A-101 TERREBONNE
INTERNATIONAL AIRPORT
AUTHORITY, FISCAL                                               PARISH CONSOLIDATED
                                                                GOVERNMENT, FISCAL
YEAR ENDED                    Republic of Palau
SEPTEMBER 30, 1998                                              YEAR ENDED
                                                                DECEMBER 31, 1998
(10125199)                    00-A-O REPUBLIC OF                (11/19/99)
                              PALAU, FISCAL YEAR
00-A-47 GUAM                  ENDED SEPTEMBER 30,199s
COMMUNITY COLLEGE,
                                                                00-A-158 GEORGIA TRUST
                              (1015199) **$424,084              FOR HISTORIC
FISCAL YEAR ENDED
                                                                PRESERVATION, INC.,
SEPTEMBER 30, 1990            00-A-8 PALAU NATIONAL             FISCAL YEAR ENDED
(10127199)                    COMMUNICATIONS                    MARCH 31, 1998 (12117199)
                              CORPORATION, FISCAL
00-A-51 GUAM                  YEAR ENDED                        00-A-160 SAINTE
TELEPHONE AUTHORITY,          DECEMBER 31, 1998 (10/8/99)       GENEVIEVE, MISSOURI,
FISCAL YEAR ENDED
                                                                FISCAL YEAR ENDED
SEPTEMBER 30,1998             00-A-210 PALAU                    SEPTEMBER 30, 1998
(1 l/2/99)                    COMMUNITY COLLEGE,                (12/17/99)
                              FISCAL YEAR ENDED
                              SEPTEMBER 30, 1998 (2/2/00)



           Semiannual Report to the Congress: October 1,1999 - March 3 1,200O               27
00-A-177 CONNECTICUT               OFFICE OF SURFACE                 00-A-237 ALASKA, FISCAL
HISTORICAL COMMISSION,             MINING                            YEAR ENDED JUNE 30, 1998
2 FISCAL YEARS ENDED                                                 (2/l 1100)
JUNE 30, 1994 (l/7/00)             RECLAMATION AND
                                   ENFORCEMENT                       00-A-251 ILLINOIS STATE
00-A-178 CONNECTICUT                                                 UNIVERSITY, FISCAL YEAR
HISTORICAL COMMISSION,             00-A-87 SHERIDAN,                 ENDED JUNE 30, 1998
2 FISCAL YEARS ENDED               WYOMING, FISCAL YEAR              (2/25/00)
JUNE 30, 1996 (l/7/00)             ENDED JUNE 30, 1998
                                   (1115199)                         00-A-303 TRUMAN STATE
00-A-186 ALLEGHENY                                                   UNIVERSITY, FISCAL YEAR
RIDGE CORPORATION,                 U.S. FISH AND                     ENDED JUNE 30, 1998
FISCAL YEAR ENDED                  WILDLIFE SERVICE                  (3123100)
JUNE 30, 1997 (l/13/00)
                                   00-A-4 NEW MEXICO                 U.S. GEOLOGICAL
00-A-247 METROPOLITAN              DEPARTMENT OF GAME                SURVEY
COUNCIL OF THE TWIN                AND FISH, FISCAL YEAR
CITIES AREA, MINNESOTA,            ENDED JUNE 30, 1998               00-A-2 ECOLOGICAL
FISCAL YEAR ENDED                  (10/g/99)                         SOCIETY OF AMERICA,
DECEMBER 31,1998                                                     INCORPORATED, FISCAL
(2/25/00)                          00-A-60 MISSISSIPPI,              YEAR ENDED JUNE 30, 1998
                                   FISCAL YEAR ENDED                 (10/S/99)
00-A-253 DELAWARE,                 JUNE 30, 1998 (1 l/4/99)
FISCAL YEAR ENDED                                                    00-A-35 CALIFORNIA
JUNE 30, 1998 (2/25/00)            00-A-61 CALIFORNIA,               TNSTITUTE OF
                                   FISCAL YEAR ENDED                 TECHNOLOGY, FISCAL
OFFICE OF THE                      JUNE 30, 1998 (1114199)           YEAR ENDED
SECRETARY                                                            SEPTEMBER 30,199l
                                   00-A-69 ORANGE COUNTY,            ( 1 O/22/99)
00-A-62 HAWAII, FISCAL             CALIFORNIA, FISCAL YEAR
YEAR ENDED JUNE 30,1998            ENDED                             00-A-157 MISSISSIPPI,
(11/4/99) “$32,167                 JUNE 30, 1998 (1115199)           ENTERPRISE FOR
                                                                     TECHNOLOGY, INC.,
00-A-64 GEORGE                     00-A-86 SOUTHERN                  FISCAL YEAR ENDED
WASHINGTON                         ILLINOIS UNIVERSITY,              SEPTEMBER 30, 1998
UNIVERSITY,                        FISCAL YEAR ENDED                 (12117199)
FISCAL YEAR ENDED                  JUNE 30, 1997 (1 l/5/99)
JUNE 30, 1998 (1 l/5/99)                                            00-A-248 WOODS HOLE
                                   00-A-88 NORTH DAKOTA,            OCEANOGRAPHIC
00-A-99 PENNSYLVANIA               FISCAL YEAR ENDED                INSTITUTION, FISCAL
STATE UNIVERSITY,                  JUNE 30, 1998 (1 l/5/99)         YEAR ENDED
FISCAL YEAR ENDED                                                   DECEMBER 31, 1998
JUNE 30, 1998                      00-A-89 OKLAHOMA                 (2/25/00)
(1 l/19/99) **$2,303               STATE UNIVERSITY, FISCAL
                                   YEAR ENDED                       00-A-249 UNIVERSITY OF
                                   JUNE 30, 1998 (1 l/5/99)         NEBRASKA, FISCAL YEAR
                                                                    ENDED JUNE 30, 1998
                                   00-A-125 AMERICAN                (2/25/00)
                                   FARMLAND TRUST, FISCAL
                                   YEAR ENDED
                                   SEPTEMBER 30,1998
                                   (1212199)



28             Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
                                                                                          a


INDIRECT COST                  00-P-20 BURNS PAIUTE             00-P-55 TONKAWA TRIBE
                               TRIBE, FISCAL YEAR ENDED         OF OKLAHOMA, FISCAL
PROPOSALS                      DECEMBER 3 1,1997                YEAR ENDED
                               (10/15/99) *$13,705              SEPTEMBER 30, 1997
BUREAU OF INDIAN                                                (11/l/99)
AFFAIRS                        00-P-21 BURNS PAIUTE
                               TRIBE, FISCAL YEAR ENDED        00-P-57 TONKAWA TRIBE
00-P-10 ST. CROIX TRIBAL       DECEMBER31, 1998                OF OKLAHOMA,
COUNCIL, FISCAL YEAR           (10/15/99) *%9,199              FISCAL YEAR ENDED
ENDED SEPTEMBER 30,                                            SEPTEMBER 30,1998
1991(10112/99)                 00-P-22 GUIDIVILLE              (1 l/2/99)
                               INDIAN RANCHER&
00-P-11 ST. CROIX TRIBAL       15.MONTH PERIOD ENDED           00-P-58 TONKAWA TRIBE
COUNCIL, FISCAL YEAR           DECEMBER 3 1, 1998              OF OKLAHOMA, FISCAL
ENDED SEPTEMBER 30,            (10/18/99)                      YEAR ENDED
1998 (10/13/99)                                                SEPTEMBER 30,1999
                               00-P-42 TRINIDAD                (1 l/3/99)
00-P-12 ST. CROIX TRIBAL       RANCHERIA, FISCAL YEAR
COUNCIL, FISCAL YEAR           ENDED DECEMBER 3 1,1999         00-P-59 FAIRBANKS
ENDED SEPTEMBER 30,            (10125199)                      NATIVE ASSOCIATION,
1999 (10/14/99)                                                FISCAL YEAR ENDED
                               00-P-43 UTE INDIAN              JUNE 30, 1999
00-P-13 KIOWA TRIBE OF         TRIBE, FISCAL YEAR ENDED        (1113199)
OKLAHOMA, FISCAL YEAR          SEPTEMBER 30,1996
ENDED DECEMBER 3 111997        (10/26/99)                      00-P-91 BOIS FORTE
(10114199) *$38,438                                            BAND OF CHIPPEWA
                               00-P-44 UTE INDIAN              INDIANS, FISCAL
00-P-16 JAMESTOWN              TRIBE, FISCAL YEAR ENDED        YEAR ENDED
S’KLALLAM TRIBE, FISCAL        SEPTEMBER 30,1997               SEPTEMBER 30, 1999
YEAR ENDED                     (10/26/99)                      (11/12/99)
SEPTEMBER 30,1999
(10/15/99)                     00-P-45 YAVAPAI-                00-P-94 HOULTON BAND
                               PRESCOTT INDIAN TRIBE,          OF MALISEET INDIANS,
00-P-17 YUROK TRIBE,           FISCAL YEAR ENDED               FISCAL YEAR ENDED
FISCAL YEAR ENDED              DECEMBER 3 1,1998               SEPTEMBER 30, 1997
SEPTEMBER 30, 1999             (10126199)                      (11/16/99) *$184,339
(10/15/99)
                               00-P-46 YAVAFAI-                00-P-95 HOULTON BAND
00-P-18 SHOALWATER             PRESCOTT TRIBE,                 OF MALISEET INDIANS,
BAY INDIAN TRIBE, FISCAL       FISCAL YEAR ENDED               FISCAL YEAR ENDED
YEAR ENDED                     DECEMBER31, 1999                SEPTEMBER 30,1998
SEPTEMBER 30,1998              (10/26/99)                      (11/16/99) *$50,203
(10/15/99) *$195,784
                               00-P-54 TONKAWA TRIBE           00-P-96 BIG PINE BAND
00-P-19 SHOALWATER             OF OKLAHOMA,                    OF PAIUTEISHOSHONE
BAY INDIAN TRIBE, FISCAL       FISCAL YEAR ENDED               INDIANS, FISCAL YEAR
YEAR ENDED                     SEPTEMBER 30,1996               ENDED DECEMBER 3 1,1996
SEPTEMBER 30,1999              (10/29/99) ‘$31,635             (11/18/99) *$25,309
(10115199) *$20,323




            Semiannual Report to the Congress: October1,1999 - March 31,200O         29
00-P-110 MECHOOPDA                00-P-150 OGLALA LAKOTA            00-P-175 DELAWARE
INDIAN TRIBE, FISCAL              COLLEGE, FISCAL YEAR              TRIBE OF WESTERN
YEAR ENDED                        ENDED SEPTEMBER 30,200O           OKLAHOMA, FISCAL YEAR
DECEMBER 3 1, 1999                (12/14/99)                        ENDED SEPTEMBER 30,
(1 l/23/99)                                                         2000 (l/5/00)
                                  00-P-151 TURTLE
00-P-113 SOUTHERN UTE             MOUNTAIN COMMUNITY                00-P-182 MUSCOGEE
COMMUNITY ACTION                  COLLEGE, FISCAL YEAR              CREEK NATION, FISCAL
PROGRAM, FISCAL YEAR              ENDED JUNE 30, 1998               YEAR ENDED
ENDED DECEMBER 3 1,1999           (12/13/99)                        SEPTEMBER 30,1998
(1 l/25/99)                                                         (l/10/00)
                                  00-P-152 TURTLE
00-P-114 SOUTHERN UTE             MOUNTAIN COMMUNITY                00-P-183 MUSCOGEE
COMMUNITY ACTION                  COLLEGE, FISCAL YEAR              CREEK NATION, FISCAL
PROGRAM, INC., FISCAL             ENDED JUNE 30,1999                YEAR ENDED
YEAR ENDED                        (12/14/99)                        SEPTEMBER 30, 1999
DECEMBER 3 1,200O                                                   (1/10/00)
(1 l/26/99)                       00-P-153 MODOC TRIBE OF
                                  OKLAHOMA, FISCAL YEAR             00-P-188 PUYALLUF TRIBE
00-P-115 ALL INDIAN               ENDED SEPTEMBER 30,1999           OF INDIANS, FISCAL YEAR
PUEBLO COUNCIL, INC.,             (12/13/99)                        ENDED SEPTEMBER 30,
FISCAL YEAR ENDED                                                   1997 (l/19/00)
JUNE 30, 1999 (1 I/25/99)         00-P-154 MODOC TRIBE OF
                                  OKLAHOMA, FISCAL YEAR             00-P-189 CONFEDERATED
00-P-116 ALL INDIAN               ENDED SEPTEMBER 30,               TRIBES OF COOS, LOWER
PUEBLO COUNCIL, INC.,             2000 (12/14/99)                   UMPQUA, AND SIUSLAW
FISCAL YEAR ENDED                                                   INDIANS, FISCAL YEAR
JUNE 30,200O                      00-P-167 STANDING ROCK            ENDED DECEMBER 3 1,1998
(1 l/26/99)                       SIOUX TRIBE, FISCAL YEAR          (l/19/00) *$.30,993
                                  ENDED
00-P-119 WYANDOTTE                SEPTEMBER 30, 1998                00-P-190 CONFEDERATED
TRIBE OF OKLAHOMA,                (12128199)                        TRIBES OF COOS, LOWER
FISCAL YEAR ENDED                                                   UMPQUA, AND SIUSLAW
SEPTEMBER 30,1999                 00-P-169 ALAMO NAVAJO             INDIANS, FISCAL YEAR
(1 l/30/99)                       SCHOOL BOARD, INC.,               ENDED DECEMBER 31, 1999
                                  FISCAL YEAR ENDED                 (l/19/00) ‘$31,239
00-P-120 WYANDOTTE                JUNE30, 1998 (12129199)
TRIBE OF OKLAHOMA,                                                 00-P-192 SAC AND FOX
FISCAL YEAR ENDED                 00-P-170 RINCON BAND OF          NATION OF OKLAHOMA,
SEPTEMBER 30,200O                 LUISENO MISSION INDIANS,         FISCAL YEAR ENDED
(1211199)                         FISCAL YEAR ENDED                DECEMBER 3 1, 1997
                                  DECEMBER 3 1, 1999               (l/20/00)
00-P-140 PONCA TRIBE OF           (12/30/99)
NEBRASKA, FISCAL YEAR                                              00-P-193 SAC AND FOX
ENDED SEPTEMBER 30,               00-P-173 STANDING ROCK           NATION OF OKLAHOMA,
1999 (12/10/99)                   SIOUX TRIBE, FISCAL              FISCAL YEAR ENDED
                                  YEAR ENDED                       SEPTEMBER 30,1998
00-P-149 OGLALA LAKOTA            SEPTEMBER 30, 1996 (113100)      (l/21/00)
COLLEGE, FISCAL YEAR
ENDED SEPTEMBER 30,               00-P-174 DELAWARE TRIBE
1999 (12/13/99)                   OF WESTERN OKLAHOMA,
                                  FISCAL YEAR ENDED
                                  SEPTEMBER 30, 1999 (l/4/00)


30            Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
00-P-194 TE-MOAK TRIBE            00-P-219 CHEYENNE RIVER          00-P-255 PUEBLO OF
OF WESTERN SHOSHONE,              SIOUX TRIBE, FISCAL YEAR         SANTA CLARA, FISCAL
FISCAL YEAR ENDED                 ENDED SEPTEMBER 30,199s          YEAR ENDED
SEPTEMBER 30,1999                 (2/7/00)                         DECEMBER 3 1, 1997
(l/24/00) *$53,084                                                 (2125100)
                                  00-P-220 CHEYENNE RIVER
00-P-196 BLACKFEET                SIOUX TRIBE, FISCAL YEAR         00-P-258 ABSENTEE
COMMUNITY COLLEGE,                ENDED SEPTEMBER 30,1999          SHAWNEE TRIBE OF
FISCAL YEAR ENDED                 (2/8/00)                         OKLAHOMA, FISCAL YEAR
SEPTEMBER 30,1998                                                  ENDED DECEMBER 3 1, 1993
(l/25/00)                         00-P-222 KASHIA BAND OF          (2128100)
                                  POMO INDIANS, FISCAL
00-P-197 BLACKFEET                YEAR ENDED                       00-P-259 ABSENTEE
COMMUNITY COLLEGE,                DECEMBER 31,200O                 SHAWNEE TRIBE OF
FISCAL YEAR ENDED                 (2/g/00)                         OKLAHOMA, FISCAL YEAR
SEPTEMBER 30, 1999                                                 ENDED DECEMBER 3 1,1994
(l/26/00)                         00-P-224 PUEBLO OF               (2/29/00)
                                  SANTA ANA, FISCAL YEAR
00-P-208 SPIRIT LAKE              ENDED SEPTEMBER 30,1998          00-P-260 GREAT LAKES
SIOUX TRIBE, FISCAL               (218100)                         INTER-TRIBAL COUNCIL,
YEAR ENDED                                                         INC., FISCAL YEAR ENDED
SEPTEMBER 30,1999                 00-P-225 PUEBLO OF               JUNE 30, 2000 (3/l/00)
(l/27/00) *$222,197               SANTA ANA, FISCAL YEAR
                                  ENDED SEPTEMBER 30,1997          00-P-261 LOWER BRULE
00-P-209 SPIRIT LAKE              (219100)                         SIOUX TRIBE, FISCAL
SIOUX TRIBE, FISCAL                                                YEAR ENDED
YEAR ENDED                       00-P-241 UPPER LAKE               SEPTEMBER 30,1998
SEPTEMBER 30,200O                BAND OF POMO INDIANS,             (2129100)
(1128100) *$69,135               FISCAL YEAR ENDED
                                 DECEMBER 3 1, 1999                00-P-262 LOWER BRULE
00-P-213 HOPLAND BAND            (2114100)                         SIOUX TRIBE, FISCAL
OF POMO INDIANS OF THE                                             YEAR ENDED
HOPLAND RANCHERIA,               00-P-242 SHOSHONE-                SEPTEMBER 30,1999
FISCAL YEAR ENDED                PAIUTE TRIBES OF                  (3/l/00)
DECEMBER 3 1, 1999 (2/3/00)      THE DUCK VALLEY INDIAN
                                 RESERVATION, FISCAL               00-P-268 FORT BELKNAP
00-P-214 PUEBLO OF SAN           YEAR ENDED                        COMMUNITY COUNCIL,
FELIPE, FISCAL YEAR              SEPTEMBER 30, 1999                FISCAL YEAR ENDED
ENDED DECEMBER 31, 1997          (Z/15/00) *$157,930               SEPTEMBER 3 1,199s
(214100)                                                           (3/7/00) *$14,307
                                 00-P-244 MIDDLETOWN
00-P-217 SENECA-CAYUGA           RANCHERIA OF POMO                 00-P-269 FORT BELKNAP
TRIBE OF OKLAHOMA,               INDIANS, FISCAL YEAR              COMMUNITY COUNCIL,
FISCAL YEAR ENDED                ENDED DECEMBER 3 1,1999           FISCAL YEAR ENDED
SEPTEMBER 30, 1998 (2/8/00)      (2/22/00)                         SEPTEMBER 30, 1999
‘$29,091                                                           (3/7/00) ‘$83,355
                                 00-P-245 MANCHESTER
00-P-218 RED LAKE BAND           BAND OF POMO INDIANS,             00-P-271 STONE CHILD
OF CHIPPEWA INDIANS,             FISCAL YEAR ENDED                 COLLEGE, FISCAL YEAR
FISCAL YEAR ENDED                DECEMBER 3 1, 2000                ENDED SEPTEMBER 30,
SEPTEMBER 30,1997                (2/22/00)                         1999 (3/9/00)
(2/S/00)



              Semiannual Report to the Congress: October I,1999 - March 3 1,200O           31
00-P-272 PUEBLO OF              00-P-288 BAY MILLS                00-P-309 LITTLE HOOP
ACOMA, FISCAL YEAR              INDIAN COMMUNITY,                 COMMUNITY COLLEGE,
ENDED DECEMBER 3 1, 1998        FISCAL YEAR ENDED                 FISCAL YEAR ENDED
(3/9/00)                        DECEMBER 31, 1999 (3/15100)       SEPTEMBER 30, 1998
                                *$10,343                          (3/22/00)
00-P-273 PUEBLO OF
ACOMA, FISCAL YEAR              00-P-292 WHITE MOUNTAIN           00-P-310 LITTLE HOOP
ENDED DECEMBER 3 1, 1999        APACHE TRIBE, FISCAL              COMMUNITY COLLEGE,
(3/9/00)                        YEAR                              FISCAL YEAR ENDED
                                ENDED APRIL 30, 1999              SEPTEMBER 30, 1999
00-P-276 MECHOOPDA              (3/21/00)                         (3/23/00)
INDIAN TRIBE, FISCAL
YEAR ENDED                      00-P-293 SKOKOMISH                00-P-317 MENOMINEE
DECEMBER 3 1, 1999              INDIAN TRIBE, FISCAL              TRIBAL ENTERPRISES,
(3/9/00) ‘$18,925               YEAR ENDED                        FISCAL YEAR ENDED
                                SEPTEMBER 30, 1997                SEPTEMBER 30, 1999
00-P-277 MECHOOPDA              (3/21/00)                         (3/23/00)
INDIAN TRIBE, FISCAL
YEAR ENDED                      00-P-294 SKOKOMISH                00-P-318 CHEYENNE-
DECEMBER 30,200O                INDIAN TRIBE, FISCAL              ARAPAHO TRIBES OF
(319100)                        YEAR ENDED                        OKLAHOMA, FISCAL YEAR
                                SEPTEMBER 30,1998                 ENDED DECEMBER 31, 1998
00-P-278 LAS VEGAS              (3121100)                         (3/24/00)
PAIUTE TRIBE, FISCAL
YEAR ENDED                      00-P-295 SKOKOMISH                00-P-325 THE KLAMATH
DECEMBER 3 1, 1999              INDIAN TRIBE, FISCAL              TRIBES, FISCAL YEAR
(319100)                        YEAR ENDED                        ENDED DECEMBER 31, 1998
                                SEPTEMBER 30, 1999                (3/28100) *$164,728
00-P-283 PUEBLO OF              (3/21/00)
SANDIA, FISCAL YEAR                                              00-P-326 DULL KNIFE
ENDED DECEMBER 31,1999          00-P-296 SKOKOMISH               MEMORIAL COLLEGE,
(3/13/00) *$37,462              INDIAN TRIBE, FISCAL             FISCAL YEAR ENDED
                                YEAR ENDED                       JUNE 30, 1998 (3/28/00)
00-P-284 MICCOSUKEE             SEPTEMBER 30,200O
CORPORATION,                    (3/21/00)                        00-P-327 DULL KNIFE
FISCAL YEAR ENDED                                                MEMORIAL COLLEGE,
SEPTEMBER 30,1998               00-P-297 OSAGE NATION,           FISCAL YEAR ENDED
(3/13/00)                       FISCAL YEAR ENDED                JUNE 30,200O (3128100)
                                SEPTEMBER 30,1998
00-P-285 COOK INLET             (3/21/00)                        00-P-328 FORT SILL
TRIBAL COUNCIL,                                                  APACHE TRIBE OF
FISCAL YEAR ENDED               00-P-298 OSAGE NATION,           OKLAHOMA, FISCAL YEAR
DECEMBER 3 1,200O               FISCAL YEAR ENDED                ENDED DECEMBER 3 1,
(3/14/00)                       SEPTEMBER 30, 1999               1999 (3/27/00)
                                (3/22/00)
00-P-286 SALT RIVER                                              00-P-329 KICKAPOO
PIMA-MARICOPA INDIAN           00-P-308 LAC COURTE               TRADITIONAL TRIBE OF
COUNCIL, FISCAL YEAR           OREILLES TRIBAL                   TEXAS, FISCAL YEAR
ENDED SEPTEMBER 30,            GOVERNING BOARD,                  ENDED SEPTEMBER 30,
1999 (3/14/00)                 FISCAL YEAR ENDED                 1997 (3/29/00)
                               SEPTEMBER 30,200O
                               (3/23/00)



32          Semiannual Report to the Congress: October 1, 1999 - March 3 I,2000
00-P-330 KICKAPOO                NATIONAL PARK                    00-P-291 OHIO
TRADITIONAL TRIBE OF                                              HISTORICAL SOCIETY,
                                 SERVICE
TEXAS, FISCAL YEAR                                                FISCAL YEAR ENDED
ENDED SEPTEMBER 30,                                               JUNE 30,200l (3/21/00)
1998 (3/30/00)                   00-P-14 MICHIGAN
                                 DEPARTMENT OF STATE,
                                                                  00-P-320
                                 FISCAL YEAR ENDED
INSULAR AREAS                                                     MASSACHUSETTS
                                 SEPTEMBER 30,200O
                                                                  HISTORICAL COMMISSION,
                                 (10/14/99)
Commonwealth of the                                               FISCAL YEAR ENDED
                                                                  JUNE 30,200l (3/27/00)
Northern Mariana                00-P-26 HISTORICAL
Islands                         SOCIETY OF WISCONSIN,
                                FISCAL YEAR ENDED
                                                                  OFFICE OF SURFACE
00-P-52 COMMONWEALTH            JUNE 30, 2000 (10/21/99)          MINING
OF THE NORTHERN                                                   RECLAMATION AND
MARIANA ISLANDS,                00-P-49 COLORADO                  ENFORCEMENT
FISCAL YEAR ENDED               HISTORICAL SOCIETY,
SEPTEMBER 30,200O               FISCAL YEAR ENDED
                                                                  00-P-l 5 NORTH DAKOTA
(1 l/2/99)                      JUNE 30,200O (10128199)           PUBLIC SERVICE
                                                                  COMMISSION, FISCAL
Republic of Palau               00-P-53 OHIO HISTORICAL           YEAR ENDED JUNE 30, 1999
                                SOCIETY, FISCAL YEAR
                                                                  (10115199)
00-P-307 REPUBLIC OF            ENDED JUNE 30,200O
PALAU, FISCAL YEAR              (1112199)
                                                                  U.S. FISH AND
ENDED SEPTEMBER 30,
                                00-P-215 EDUCATION                WILDLIFE SERVICE
2000 (3/22/00)
                                MANAGEMENT
                                CORPORATION,                      00-P-l MARYLAND
MINERALS                        FISCAL YEAR ENDED                 DEPARTMENT OF
MANAGEMENT                      DECEMBER31, 1998                  NATURAL RESOURCES,
SERVICE                         (217100)                          FISCAL YEAR
                                                                  ENDED JUNE 30,200O
00-P-118 COLORADO               00-P-256 MISSISSIPPI              (10/6/99)
DEPARTMENT OF                   DEPARTMENT OF ARCHIVES
REVENUE, FISCAL YEAR            AND HISTORY, FISCAL               00-P-48 COLORADO
ENDED JUNE 30,200O              YEAR ENDED                        DEPARTMENT OF
(1 l/29/99)                     JUNE 30,200O (2/27/00)            NATURAL RESOURCES,
                                                                  FISCAL YEAR ENDED JUNE
MULTI-OFFICE                    00-P-257 MISSISSIPPI              30, 2000 (10/28/99)
                                DEPARTMENT OF ARCHIVES
00-P-56 NEVADA                  AND HISTORY, FISCAL              00-P-141 MASSACHUSETTS
DEPARTMENT OF                   YEAR                             DEPARTMENT OF
CONSERVATION AND                ENDED JUNE 30,200l               FISHERIES, WILDLIFE &
NATURAL RESOURCES               (2127100)                        ENVIRONMENTAL LAW
DIVISION OF WILDLIFE,                                            ENFORCEMENT, FISCAL
FISCAL YEAR ENDED               00-P-263 SOUTH CAROLINA          YEAR ENDED JUNE 30,200O
JUNE 30, 1999 (1 l/3/99)        DEPARTMENT OF PARKS,             (12/10199)
                                RECREATION AND
                                TOURISM, FISCAL YEAR             00-P-142 MASSACHUSETTS
                                ENDED JUNE 30, 1999 (3/3/00)     HISTORICAL COMMISSION,
                                                                 FISCAL YEAR ENDED
                                                                 JUNE 30,200O (12/10/99)




             Semiannual Report to the Congress: October 1,1999 - March 3 1,200O            33
00-P-143 MASSACHUSETTS         00-P-264 MICHIGAN                 00-P-184 NORTH DAKOTA
EXECUTIVE OFFICE OF            DEPARTMENT OF NATURAL             PUBLIC SERVICE
ENVIRONMENTAL                  RESOURCES, FISCAL YEAR            COMMISSION, FISCAL
AFFAIRS,                       ENDED SEPTEMBER 30,200O           YEAR ENDED JUNE 30,200I
FISCAL YEAR ENDED              (3/3/00)                          (l/13/00)
JUNE 30,200O (12/10/99)
                               00-P-287 NEW HAMPSHIRE            00-P-275 VIRGINIA
00-P-144 MASSACHUSETTS         FISH AND GAME                     DEPARTMENT OF MINES,
ENVIRONMENTAL                  DEPARTMENT,                       MINERALS AND ENERGY,
MANAGEMENT, FISCAL             FISCAL YEAR ENDED                 FISCAL YEAR ENDED
YEAR ENDED JUNE 30,200O        JUNE 30, 2001 (3/15/00)           TUNE 30,200l (3/9/00)
(12/10/99)
                               00-P-301 MASSACHUSETTS
00-P-145 MASSACHUSETTS         DEPARTMENT OF
DIVISION OF FISHERIES          ENVIRONMENTAL
AND WILDLIFE, FISCAL           MANAGEMENT, FISCAL
YEAR ENDED JUNE 30,200O        YEAR ENDED JUNE 30,200l
(12/10/99)                     (3/22/00)

00-P-146 MASSACHUSETTS         00-P-311 MISSISSIPPI
DIVISION OF MARINE             DEPARTMENT OF WILDLIFE,
FISHERIES, FISCAL YEAR         FISHERIES AND PARKS,
ENDED JUNE 30,200O             FISCAL YEAR ENDED JUNE
(12/10/99)                     30,200O (3/23/00)

00-P-147 MASSACHUSETTS         00-P-321 MASSACHUSETTS
DIVISION OF                    DIVISION OF MARINE
ENVIRONMENTAL                  FISHERIES, FISCAL YEAR
LAW ENFORCEMENT,               ENDED JUNE 30,200l
FISCAL YEAR ENDED              (3/27/00)
JUNE 30,200O
(12/10/99)                     00-P-322 MASSACHUSETTS
                               EXECUTIVE OFFICE OF
00-P-148 MASSACHUSETTS         ENVIRONMENTAL
DEPARTMENT OF FOOD &           AFFAIRS, FISCAL YEAR
AGRICULTURE, FISCAL            ENDED JUNE 30,200l
YEAR ENDED JUNE 30,200O        (3/27/00)
(12/10/99)
                               00-P-323 MASSACHUSETTS
00-P-181 PENNSYLVANIA          DIVISION OF FISHERIES
FISH & BOAT COMMISSION,        AND WILDLIFE, FISCAL
FISCAL YEAR ENDED              YEAR ENDED JUNE 30,200l
JUNE 30,200l (l/10/00)         (3/27/00)

00-P-211 MASSACHUSETTS         00-P-324 MASSACHUSETTS
DEPARTMENT OF                  DEPARTMENT OF FOOD
FISHERIES AND WILDLIFE         AND AGRICULTURE, FISCAL
RIVERWAYS PROGRAM,             YEAR ENDED
FISCAL YEAR ENDED.             JUNE 30,200l (3/27/00)
JUNE 30,200l (l/25/00)




34         Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O
                                                                                           I


                                            APPENDIX 3

           MONETARY IMPACT OF AUDIT ACTIVITIES FROM




 - lkderatcxl states al




’ Costs for audits performed by the Defense Coottact Audit Agency are not included.
[* Includes monetary impact of indirect cost proposals negotiated.
‘** Representq lost or potential edditional revenues.
I*** Includes monetary impact of non-Federal funds (see Appendix 4).



            Semiannual Report to the Congress: October 1,1999 - March 3 1,200O        35
                                        APPENDIX 4

                  NON-FEDERAL FUNDING INCLUDED IN
                 MONETARY IMPACT OF AUDIT ACTIVITIES
                  DURING THE 6-MONTH PERIOD ENDED
                           MARCH 31, 2000

No. 00-I-216 - “Administration ofFederal Grants, University ofthe Virgin Islands,” dated February
2000. Of the $2,696,000 reported as monetary impact, $16,000 represents insular area funds and
$2,680,000 represents Federal funds.




36          Semiannual Report to the Congress: October 1,1999 - March 31,200O
                                                                                                  n


                                        APPENDIX 5                                            I
                                          Table I

                          INSPECTOR GENERAL REPORTS
                             WITH QUESTIONED COSTS                     '


                            No. of Renorts*       Questioned Costs
A. For which no
management decision hat
been made by the
commencement of the
reporting period                                    %194,662,184            s&588,369
B. Which were issued
during the reportkg
period                                                 13.788.219           1.793+42
   Total (A+B)                                                              g5.482.215
C. For which a
management decision
was made during the
reporting period                   24                $24,906,621             $256684
  (i) dollar value of
      disallowed costs             22                $23,196,780             $256,684
  (ii) dollar value of
       costs not
       disallowed                   5                 $1,709,841
D. For which no
management decision had
been made by the end of
the reporting period               14               3183,543,782
E. For which no
management decision
was made within 6
months of issuance                 59              %171,734,442




            Semiannual Report to the Congress: October 1, 1999 - March 3 1,ZOOO          37
                                                 APPENDIX 5
                                                   Table II

      INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
               THAT FUNDS BE PUT TO BETTER USE


                                                                      No. of Reports*            Doltat Value**
 4. For which no management decision had been made by
 he commencement of the reporting period                                      32                 $289,589,900
 B. Which were issued during the reporting period                             22                  183.665.370***
     Total (A+B)                                                              g
 2. For which a management decision was made during the
 =Wtingperiod                                                                 27                $X72,681,216
     (i) dollar value of recommendations that were agreed
         to by management                                                     27                $172,519,737***
     (ii) dollar value of recommendations that were not
          agreed to by management                                               1                    $161,479
 D. For which no management decision had been made by
 heendofthemportingperiod                                                     32                $300,574,054
 E. For which no management decision was madewitbin
 5 months of issuance                                                         29                $287,090,887
 ’Ftqwt to?& cannat be rcrcmcilaf because mm reports have dollar mats in both the agreed and disagreed categories.
 ‘* AxmlmtB inchde preaward all&&




38             Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
                                          APPENDIX 5
                                            Table III

            INSPECTOR GENERAL REPORTS WITH LOST OR
                 POTENTIAL ADDITIONAL REVENUES




3. Which were issued during the reporting period
   Total (A+B)
:. For which a management decision was made during
he reporting period
  (i) dollar value of recommendations   that were
   agreed to by management
  (ii) dollar value of recommendations that were not
   agreed to by management
I. For which no management decision had bee-n made




             Semiannual Report to the Congress: October 1,1999 - March 31,200O   39
                                     APPENDIX 6

             SUMMARY OF REPORTS OVER 6 MONTHS OLD
                PENDING MANAGEMENT DECISIONS




INTERNAL AUDITS                Commonwealth of the              Guam
                               Northern Mariana
                               Islands                          92-I-597 SELECTION,
BUREAU OF LAND                                                  PROCUREMENT, AND
MANAGEMENT                                                      ADMINISTRATION OF
                               94-I-936 FOLLOWUP
                               OF RECOMMENDATIONS               WATER DISTRIBUTION
98-I-689 FOLLOWUP OF                                            PROJECTS, PUBLIC UTLLITY
                               CONCERNING THE
NEVADA LAND EXCHANGE                                            AGENCY OF GUAM,
                               ECONOMIC DEVELOPMENT
ACTIVITIES, BUREAU OF          LOAN FUND,                       GOVERNMENT OF GUAM
LAND MANAGEMENT                                                 (3/20/92)
                               COMMONWEALTH
(9/30/98)                                                       2 RECOMMENDATTONS
                               DEVELOPMENT
2 RECOMMENDATIONS                                               UNRESOLVED
                               AUTHORITY (7/l 8/94)
UNRESOLVED                     2 RECOMMENDATIONS
                               UNRBSOLVED                       93-I-706 SELECTBD
BUREAU OF                                                       SPECIAL REVENUE FUNDS,
                               96-I-596 MANAGEMENT OF           GOVERNMENT OF GUAM
RECLAMATION                                                     (3/15/93)
                               PUBLIC LAND,
                               COMMONWEALTH OF THE              7 RECOMMENDATIONS
98-I-250 FOLLOWUF OF
                               NORTHERN MARIANA                 AND $39,330,411
RECOVERY OF IRRIGATION
                               ISLANDS (3/20/96)                UNRESOLVED
INVESTMENT COSTS,
BUREAU OF RECLAMATION          6 RECOMMENDATIONS
                               AND %145,877,257                 93-I-l 195 IMPACT OF THE
(Z/13/98)
                               UNRESOLVED                       COMPACT OF FREE
3 RECOMMENDATIONS                                               ASSOCIATION ON THE
UNRESOLVED
                               99-I-147 MANAGEMENT OF           GOVERNMENT OF GUAM
                               FEDERAL GRANTS, PUBLIC           (6128193)
INSULAR AREAS                                                   1 RECOMMENDATION AND
                               SCHOOL SYSTEM,
                               COMMONWEALTH OF THE              $15,911,978 UNRESOLVED
American Samoa                 NORTHERN MARL4NA
                               ISLANDS (12/l 5/98)              94-I-106 REVIEW OF
93-I-1600 REVIEW OF                                             GUAM’S
                               1 RECOMMENDATION AND
GRANT ADMINISTRATION,                                           GOVERNMENTWIDE
                               $17.044 UNRESOLVED
DEPARTMENT OF                                                   TRAVEL PRACTICES
EDUCATION, AMERICAN                                             (1 l/26/93)
SAMOA GOVERNMENT                                                14 RECOMMENDATIONS
(9130193)                                                       AND $1,689,650
2 RECOMMENDATIONS                                               UNRESOLVED
AND $306,637 UNRESOLVED




40         Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
97-I-591 GUAM                  99-I-255 FEDERAL GRANT           93-I-572 SUPPLY AND
LEGISLATURE,                   PROGRAM TRAVEL                   EQUIPMENT
GOVERNMENT OF GUAM             ACTIVITIES, DEPARTMENT           MANAGEMENT,
(3124197)                      OF EDUCATION,                    DEPARTMENT OF
5 RECOMMENDATIONS              GOVERNMENT OF GUAM               EDUCATION,
AND $1,004,084                 (2125199)                        GOVERNMENT OF THE
UNRESOLVED                     7 RECOMMENDATIONS                VIRGIN ISLANDS (2/19/93)
                               AND $47,879 UNRESOLVED           9 RECOMMENDATIONS
97-I-1051 FOLLOWUP OF                                           AND $3 10,000
PECOMMENDATTONS                99-I-455 EXTENDED DAY            UNRESOLVED
CONCERNING PERSONNEL           PROGRAM, DEPARTMENT
AND PAYROLL PRACTICES,         OF EDUCATION,                    93-I-670 PERSONNEL,
LEGISLATIVE BRANCH,            GOVERNMENT OF GUAM               PROPERTY MANAGEMENT,
GOVERNMENT OF GUAM             (5111199)                        AND PROCUREMENT
(713 l/97)                     8 RECOMMENDATIONS                PRACTICES, BUREAU OF
1 RECOMMENDATTON               AND $2,661,634                   CORRECTIONS,
UNRESOLVED                     UNRESOLVED                       GOVERNMENT OF THE
                                                                VIRGIN ISLANDS (3111193)
97-I-1294 SCHOOL BUS           Republic of the Marshall         14 RECOMMENDATIONS
OPERATIONS,                    Islands                          AND $265,823
DEPARTMENT OF PUBLIC                                            UNRESOLVED
WORKS, GOVERNMENT OF           94-I-21 CAPITOL
GUAM (9/30/97)                 RELOCATION PROJECT,              95-I-1258 SCHOOL LUNCH
6 RECOMMENDATIONS                                               PROGRAM, DEPARTMENT
                               REPUBLIC OF THE
AND $3,584,034                 MARSHALL ISLANDS                 OF EDUCATION,
UNRESOLVED                     (10118193)                       GOVERNMENT OF THE
                                                                VIRGIN ISLANDS (9112195)
                               2 RECOMMENDATIONS
98-I-179 PROTECTION AND                                         1 RECOMMENDATION
                               UNRESOLVED
ADVOCACY OF THE                                                 UNRESOLVED
MARIANAS, TERRITORY OF
GUAM (12123197)
                               U.S. Virgin Islands             96-E-828 ACCOUNTMG
10 RECOMMENDATIONS                                             CONTROLS FOR DISASTER
AND $741,687 UNRESOLVED        91-I-467 FOLLOWUP OF            ASSISTANCE FUNDS,
                               RECOMMENDATIONS                 POLICE DEPARTMENT,
98-I-264 LEGISLATURE           CONTAINED IN THE                GOVERNMENT OF THE
CAPITAL IMPROVEMENT            REPORT ON THE ROAD              VIRGIN ISLANDS (5/31/96)
                               FUND, GOVERNMENT OF             2 RECOMMENDATIONS
FUND, GUAM
LEGISLATURE,                   THE VIRGIN ISLANDS              UNRESOLVED
GOVERNMENT OF GUAM             (2119191)
                               1 RECOMMENDATION                97-I-40 DIVISION OF
(2120198)
4 RECOMMENDATIONS              UNRESOLVED                      AGRICULTURE,
AND $4,159,110                                                 DEPARTMENT OF
UNRESOLVED                    93-I-363 INMATE CARE,            ECONOMIC DEVELOPMENT
                              REHABILITATION, AND              AND AGRICULTURE,
99-I-13 ON-CALL               SAFETY, BUREAU OF                GOVERNMENT OF THE
SUBSTITUTE TEACHERS,          CORRECTIONS,                     VIRGIN ISLANDS (10121196)
                              GOVERNMENT OF THE                8 RECOMMENDATIONS
DEPARTMENT OF
EDUCATION,                    VIRGIN ISLANDS (12/3 l/92)       AND $90,000 UNRESOLVED
GOVERNMENT OF GUAM            10 RECOMMENDATIONS
(10121198)                    UNRESOLVED
1 RECOMMENDATION
UNRESOLVED




           Semiannual Report to the Congress: October 1,1999 - March 3 1,200O              41
97-E-189 SUBGRANT               98-I-188 INTERNAL                99-I-365 FOLLOWUP OF
ADMINISTRATION FOR              REVENUE TAXES, BUREAU            RECOMMENDATIONS
DISASTER ASSISTANCE             OF INTERNAL REVENUE,             RELATING TO PERSONNEL
FUNDS, OFFICE OF                GOVERNMENT OF THE                MANAGEMENT
MANAGEMENT AND                  VIRGIN ISLANDS (12/30/97)        PRACTICES, DIVISION OF
BUDGET, GOVERNMENT OF           1 RECOMMENDATION                 PERSONNEL,
THE VIRGIN ISLANDS              UNRESOLVED                       GOVERNMENT OF THE
(11126196)                                                       VIRGIN ISLANDS (3126199)
2 RECOMMENDATIONS               98-I-191 BUILDING PERMIT         3 RECOMMENDATIONS
UNRESOLVED                      FEES, DEPARTMENT OF              AND $24,300,000
                                PLANNING AND NATURAL             UNRESOLVED
97-E239 PROCUREMENT             RESOURCES,
PRACTICES FOR                   GOVERNMENT OF THE                99-I-701 FEDERAL TRANSIT
HURRICANE-RELATED               VIRGIN ISLANDS (12/30/97)        ADMINISTRATION
DEBRIS REMOVAL,                 7 RECOMMENDATIONS                GRANTS, DEPARTMENT OF
DEPARTMENT OF PUBLIC            AND $143,446 UNRESOLVED          PUBLIC WORKS,
WORKS, GOVERNMENT OF                                             GOVERNMENT OF THE
THE VIRGIN ISLANDS              98-I-263 SEWAGE SYSTEM           VIRGIN ISLANDS (812199)
(12117196)                      USER FEES, GOVERNMENT            6 RECOMMENDATIONS
1 RECOMMENDATION                OF THE VIRGIN ISLANDS            AND $119,758
UNRESOLVED                      (2120198)                        UNRESOLVED
                                5 RECOMMENDATIONS
97-I-243 WORKMEN’S              AND $897,212 UNRESOLVED          NATIONAL PARK
COMFENSATTON                                                     SERVICE
PROGRAM, GOVERNMENT             98-I-384 HURRICANE-
OF THE VIRGIN ISLANDS           RELATED CONTRACTING,             98-I-344 FOLLOWUF OF
(12/30/96)                      DEPARTMENT OF                    MAINTENANCE
15 RECOMMENDATIONS              EDUCATION,                       ACTIVITIES, NATIONAL
AND %2,530,000                  GOVERNMENT OF THE                PARR SERVICE (3127198)
UNRESOLVED                      VIRGIN ISLANDS (3/31/98)         3 RECOMMENDATIONS
                                4 RECOMMENDATIONS                AND $411,000
97-E-279 ACCOUNTING             AND $5,418 UNRESOLVED            UNRESOLVED
CONTROLS FOR DISASTER
ASSISTANCE FUNDS,               98-I-468 FOLLOWUP OF             98-I-389 CONCESSIONER
VIRGIN ISLANDS WATER            RECOMMENDATIONS                  IMPROVEMENT
AND POWER AUTHORITY             RELATING TO THE BUREAU           ACCOUNTS, NATIONAL
(117197)                        OF CORRECTIONS,                  PARR SERVICE (3131198)
3 RECOMMENDATIONS               DEPARTMENT OF JUSTICE,           $224,800 UNRESOLVED
UNRESOLVED                      GOVERNMENT OF THE
                                VIRGIN ISLANDS (5/29/98)         98-I-686 SELECTED
98-E-98 EXPENDITURES            6 RECOMMENDATIONS                MANAGEMENT ACTIVITIES
CLAIMED AGAINST THE             UNRESOLVED                       AT MANASSAS NATIONAL
FEDERAL EMERGENCY                                                BATTLEFIELD PARR,
MANAGEMENT AGENCY’S             98-I-670 INTERFUND LOANS         NATIONAL PARR SERVICE
COMMUNITY DISASTER              AND FEDERAL GRANT                (g/21/98)
LOAN, GOVERNMENT OF             BALANCES, GOVERNMENT             1 RECOMMENDATION
THE VIRGlN ISLANDS              OF THE VIRGIN ISLANDS            UNRESOLVED
(1 l/12/97)                     (919198)
4 RECOMMENDATIONS               14 RECOMMENDATIONS              99-I-518 LAND
AND $2 1,700 UNRESOLVED         AND $1,581,000,000              ACQUISITION ACTIVITIES,
                                UNRESOLVED                      NATIONAL PARR SERVICE
                                                                (5/28/99)
                                                                4 RECOMMENDATIONS
                                                                AND $3,188,000
                                                                UNRESOLVED

42          Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
99-I-626 CONCESSION                94-E-919 COSTS CLAIMED           U.S. FISH AND
CONTRACTING                        BY DIVERSIFIED BUSINESS          WILDLIFE SERVICE
PROCEDURES, NATIONAL               TECHNOLOGIES
PARK SERVICE (6130199)             CORPORATION UNDER                97-E-1254 U.S. FISH AND
6 RECOMMENDATIONS                  CONTRACT NO. CBM000147           WILDLIFE SERVICE
AND $1,514,000                     (6130194)                        FEDERAL AID GRANTS TO
UNRESOLVED                         $247,414 UNRESOLVED              FLORIDA’S DEPARTMENT
                                   (Cmmstances beyond the           OF ENVIRONMENTAL
OFFICE OF THE                      Bureau’s control have delayed    PROTECTION FOR 2 FISCAL
SPECIAL TRUSTEE                    resolution of the costs.)        YEARS ENDED JUNE 30,
FOR AMERICAN                                                        1996 (9118197)
                                   98-E-709 BOMAR, INC.,            2 RECOMMENDATIONS
INDIANS                            REQUEST FOR EQUITABLE            UNRESOLVED
                                   ADJUSTMENT SUBMITTED
99-I-372 FINANCIAL                 UNDER BUREAU OF INDIAN           98-E-198 U.S. FISH AND
STATEMENTS FOR FISCAL              AFFAIRS CONTRACT                 WILDLIFE SERVICE
YEAR 1997 FOR THE                  NO. 145CBH002116 (g/30/98)       FEDERAL AID GRANTS TO
OFFICE OF THE SPECIAL              $2,169,615 UNRESOLVED            COLORADO FOR 2 FISCAL
TRUSTEE FOR AMERICAN
                                                                    YEARS ENDED JUNE 30,
INDIANS TRIBAL AND                 INSULAR AREAS                    1995 (l/16/98)
OTHER SPECIAL TRUST
                                                                    1 RECOMMENDATION AND
FUNDS AND INDIVIDUAL
INDIAN MONIES TRUST
                                   Republic of the Marshall         $1,453,632 UNRESOLVED
FUNDS MANAGED BY THE               Islands
                                                                    98-E-681 U.S. FISH AND
OFFICE OF TRUST FUNDS
                                   95-E-951 GRANT AND               WILDLIFE SERVICE
MANAGEMENT (3126199)
                                   TRUST FUNDS PROVIDED             FEDERAL AID GRANTS TO
1 RECOMMENDATION
                                   FOR THE RONGELAP                 NEW YORK DEPARTMENT
UNRESOLVED
                                   RESETTLEMENT PROJECT,            OF ENVIRONMENTAL
                                   REPUBLIC OF THE                  CONSERVATION FOR 2
CONTRACT AND                       MARSHALL ISLANDS                 FISCAL YEARS ENDED
GRANT AUDITS                       (5/22/95) $215,960               MARCH 31, 1996(9117/98)
                                   UNRESOLVED                       $1,743,935 UNRESOLVED
BUREAU OF INDIAN
                                   NATIONAL PARK                    98-E-705 U.S. FISH AND
AFFAIRS                                                             WILDLIFE SERVICE
                                   SERVICE                          FEDERAL AID GRANTS TO
94-E-184 COSTS CLAIMED                                              RHODE ISLAND
BY DIVERSIFIED BUSINESS            98-E-217 RAMPART                 DEPARTMENT OF
TECHNOLOGIES                       WATERBLAST, INC., CLAIM          ENVIRONMENTAL
CORPORATION UNDER                  SUBMITTED UNDER                  MANAGEMENT, DIVISION
CONTRACT NO. CBM000047             NATIONAL PARR SERVICE            OF FISH AND WILDLIFE,
(6/10/94)                          CONTRACT                         FOR 2 FISCAL YEARS
$825,170 UNRESOLVED                NO. 1443CX-3000-93-904           ENDED JUNE 30,1996
(Circumstances beyond the          (118198) $1,464,523              (g/30/98)
Bureau’s control have delayed      UNRESOLVED                       8 RECOMMENDATIONS
resolution of the costs.)                                           AND $1,104,906
                                                                    UNRESOLVED




               Semiannual Report to the Congress: October 1, 1999 - March 3 1,200O        43
99-E-78 U.S. FISH AND            99-E-729 U.S. FISH AND          91-A-803 MAPJANA
WILDLIFE SERVICE                 WILDLIFE SERVICE                ISLANDS HOUSING
FEDERAL AID GRANTS TO            FEDERAL AID GRANTS TO           AUTHORITY, FISCAL YEAR
MISSISSIPPI DEPARTMENT           MISSISSIPPI DEPARTMENT          ENDED SEPTEMBER 30,
OF MARINE RESOURCES              OF WILDLIFE, FISHERIES          1986 (5/7/91)
FOR 2 FISCAL YEARS               AND PARKS FOR 2 FISCAL          1 RECOMMENDATION AND
ENDED JUNE 30,1997               YEARS ENDED JUNE 30,            $1,537,321 UNRESOLVED
(1114/98)                        1997 (8/4/99)
16 RECOMMENDATIONS               10 RECOMMENDATIONS              91-A-823 MARLANA
AND $42,887 UNRESOLVED           UNRESOLVED                      ISLANDS HOUSING
                                                                 AUTHORITY, FISCAL YEAR
99-E-240 BIRD                    U.S. GEOLOGICAL                 ENDED SEPTEMBER 30,
CONSTRUCTION COMPANY,            SURVEY                          1987 (5110191)
INC., CLAIM FOR                                                  1 RECOMMENDATION AND
EQUITABLE ADJUSTMENT                                             $455,857 UNRESOLVED
SUBMITTED TO U.S. FISH           93-E-339 TGS
AND WILDLIFE SERVICE             TECHNOLOGY, INC.,               91-A-824 MARIANA
UNDER CONTRACT                   CLOSING STATEMENT               ISLANDS HOUSING
NO. FWS 10-94-038 (2/18/99)      (12/22/92) $520,235             AUTHORITY, FISCAL YEAR
$2506,690 UNRESOLVED             UNRESOLVED                      ENDED SEPTEMBER 30,
                                                                 1988 (5/10/91)
99-E-394 US. FISH AND            SINGLE AUDITS                   1 RECOMMENDATION AND
WILDLIFE SERVICE                                                 $196,593 UNRESOLVED
FEDERAL AID GRANTS TO            BUREAU OF INDIAN
ARKANSAS FOR 2 FISCAL            AFFAIRS                         92-A-1179 MARIANA
YEARS ENDED JUNE 30,                                             ISLANDS HOUSING
1997 (3129199)                  96-A-l 122 NORTHWESTERN          AUTHORITY,
14 RECOMMENDATIONS                                               FISCAL YEAR ENDED
                                BAND OF THE SHOSHONI
AND $881,800 UNRESOLVED         NATION, FISCAL YEAR              SEPTEMBER 30, 1989
                                                                 (8/13/92)
                                ENDED DECEMBER 30,1994
99-R-727 U.S. FISH AND                                           1 RECOMMENDATION AND
                                (08115196)
WILDLIFE SERVICE                                                 $168,711 UNRESOLVED
                                1 RECOMMENDATION
GRANTS TO OREGON
                                UNRESOLVED (Circumstances
DEPARTMENT OF FISH AND                                           93-A-l 10 MARIANA
                                beyond the Bureau’s control
                                have delayed resolution of the
WILDLIFE FOR 2 FISCAL                                            ISLANDS HOUSING
YEARS ENDED JUNE 30,            recommendation.)                 AUTHORITY, FISCAL YEAR
1996 (814199)                                                    ENDED SEPTEMBER 30,
10 RECOMMENDATIONS                                               1990 (10/26/92)
UNRESOLVED                      INSULAR AREAS                    1 RECOMMENDATION AND
                                                                 $124,450 UNRESOLVED
99-E-728 U.S. FISH AND          Commonwealth of the
WILDLIFE SERVICE                Northern Mariana                 93-A-225 MARIANA
GRANTS TO PUERTO RICO           Islands                          ISLANDS HOUSING
DEPARTMENT OF                                                    AUTHORITY, FISCAL YEAR
NATURAL RESOURCES FOR           91-A-731 COMMONWEALTH            ENDED SEPTEMBER 30,
2 FISCAL YEARS ENDED                                             1991 (11119192)
                                UTILITIES CORPORATION,
JUNE 30, 1996 (8/4/99)          FISCAL YEAR ENDED                1 RECOMMENDATION AND
7 RECOMMENDATIONS               SEPTEMBER 30,1988                $1,119,377 UNRESOLVED
UNRESOLVED                      (4126191)
                                15 RECOMMENDATIONS
                                AND $6,087,882
                                UNRESOLVED




44           Semiannual Report to the Congress: October I,1999 - March 31,200O
93-A-1563                        95-A-784 COMMONWEALTH            Federated States of
COMMONWEALTH                     PORTS AUTHORITY,                 Micronesia
DEVELOPMENT                      FISCAL YEAR ENDED
AUTHORITY, FISCAL YEAR           SEPTEMBER 30, 1994               96-A-482 FEDERATED
ENDED SEPTEMBER 30,1988          (4112195)                        STATES OF MICRONESIA
(9/13/93)                        10 RECOMMENDATIONS               NATIONAL GOVERNMENT,
52 RECOMMENDATIONS               UNRESOLVED                       FISCAL YEAR ENDED
AND $4,998,398                                                    SEPTEMBER 30, 1994
UNRESOLVED                       97-A-851 NORTHERN                (2129196)
                                 MARIANAS COLLEGE,                19 RECOMMENDATIONS
94-A-525 COMMONWEALTH            FISCAL YEAR ENDED                AND $57,900 UNRESOLVED
DEVELOPMENT                      SEPTEMBER 30, 1993
AUTHORITY, FISCAL YEAR           (5116197)                        97-A-244 FEDERATED
ENDED SEPTEMBER 30,1989          36 RECOMMENDATIONS               STATES OF MICRONESL4
(4115194)                        UNRESOLVED                       NATIONAL GOVERNMENT,
45 RECOMMENDATIONS                                                FISCAL YEAR ENDED
AND %6,078,308                   98-A-339 COMMONWEALTH            SEPTEMBER 30, 1995
UNRESOLVED                       OF THE NORTHERN                  (12/23/96)
                                 MARIANA ISLANDS,                 22 RECOMMENDATIONS
94-A-574 COMMONWEALTH            FISCAL YEAR ENDED                AND $166,523
UTILITIES CORPORATION,           SEPTEMBER 30,1996                UNRESOLVED
FISCAL YEAR ENDED                (3/l l/98)
SEPTEMBER 30, 1990 (516194)      47 RECOMMENDATIONS               98-A-386 FEDERATED
61 RECOMMENDATIONS               AND $11,176,309                  STATES OF MICRONESIA
AND $166,509 UNRESOLVED          UNRESOLVED                       NATIONAL GOVERNMENT,
                                                                  FISCAL YEAR ENDED
94-A-818 COMMONWEALTH           99-A-355                          SEPTEMBER 30,1996
UTILITIES CORPORATION,          COMMONWEALTH OF THE               (3/3 1198)
FISCAL YEAR ENDED               NORTHERN MARLANA                  23 RECOMMENDATIONS
SEPTEMBER 30,199l               ISLANDS PUBLIC SCHOOL             AND $109,560
(6/16/94)                       SYSTEM, FISCAL YEAR               UNRESOLVED
42 RECOMMENDATIONS              ENDED SEPTEMBER 30,1995
UNRESOLVED                      (3112199)                        99-A-189 FEDERATED
                                18 RECOMMENDATIONS               STATES OF MICRONESIA
94-A-836 COMMONWEALTH           UNRESOLVED                       NATIONAL GOVERNMENT,
OF THE NORTHERN                                                  FISCAL YEAR ENDED
MAPJANA ISLANDS, FISCAL         99-A-396 COMMONWEALTH            SEPTEMBER 30, 1997
YEAR ENDED                      OF THE NORTHERN                  (102199) 16
SEPTEMBER 30, 1993              MARIANA ISLANDS, FISCAL          RECOMMENDATIONS
(6/20/94)                       YEAR ENDED                       UNRESOLVED
59 RECOMMENDATIONS              SEPTEMBER 30, 1997
UNRESOLVED                      (3129199)
                                47 RECOMMENDATIONS
                                                                  Chuuk
94-A-1083 MARIANA               AND $596,15 1 UNRESOLVED
                                                                  91-A-505 CHUUK STATE
ISLANDS HOUSING
                                                                  GOVERNMENT, FISCAL
AUTHORITY, FISCAL YEAR
ENDED SEPTEMBER 30,1993                                           YEAR ENDED
                                                                  SEPTEMBER 30,1989
(E/3/94)
                                                                  (2/20/91)
5 RECOMMENDATIONS
                                                                  1 RECOMMENDATION AND
UNRESOLVED
                                                                  $665,817 UNRESOLVED




             Semiannual Report to the Congress: October 1,1999 - March 3 1,200O         45
92-A-519 CHUUK STATE             Republic of Palau                98-A-176 PALAU
GOVERNMENT, FISCAL                                                COMMUNITY ACTION
YEAR ENDED                       92-A-368 PALAU                   AGENCY, FISCAL YEAR
SEPTEMBER 30, 1990               COMMUiilTY ACTION                ENDED SEPTEMBER 30,
(2/25/92)                        AGENCY, FISCAL YEAR              1994 (12/12/97)
1 RECOMMENDATION AND             ENDED SEPTEMBER 30,199O          16 RECOMMENDATIONS
$1,940,938 UNRESOLVED            (l/24/92)                        AND $4,769 UNRESOLVED
                                 1 RECOMMENDATION AND
94-A-374 STATE OF CHUUK,         $2,593 UNRESOLVED                98-A-177 PALAU
FEDERATED STATES OF                                               COMMUNITY ACTION
MICRONESIA, FISCAL YEAR          92-A-885 REPUBLIC OF             AGENCY, FISCAL YEAR
ENDED SEPTEMBER 30,1992          PALAU, FISCAL YEAR               ENDED SEPTEMBER 30,
(2/28/94)                        ENDED SEPTEMBER 30,1989          1995 (12/12/97)
15 RECOMMENDATIONS               (615192)                         12 RECOMMENDATIONS
UNRESOLVED                        1 RECOMMENDATTON AND            AND $43,843 UNRESOLVED
                                 $40,262 UNRESOLVED
Kosrae                                                            99-A-37 REPUBLIC OF
                                 93-A-1053 PALAU                  PALAU, FISCAL YEAR
94-A-367 STATE OF                COMMUNITY ACTION                 ENDED SEPTEMBER 30,
KOSRAE, FEDERATED                AGENCY, FISCAL YEAR              1997 (10/20/98)
STATES OF MICRONESIA,            ENDED SEPTEMBER 30,199l          22 RECOMMENDATIONS
FISCAL YEAR ENDED                (5/l l/93)                       AND $1,029,762
SEPTEMBER 30,1992                12 RECOMMENDATIONS               UNRESOLVED
(2124194)                        UNRESOLVED
9 RECOMMENDATIONS                                                 99-A-333 PALAU
UNRESOLVED                       93-A-1629 REPUBLIC OF            COMMUNITY ACTION
                                 PALAU. FISCAL YEAR               AGENCY, FISCAL YEAR
Pohnpei                          ENDED’SEPTEMBER 30, 1990         ENDED SEPTEMBER 30,
                                 (9/30/93)                        1996 (3/l/99)
91-A-398 POHNPEI STATE           i RECOMMENDATION AND             13 RECOMMENDATIONS
GOVERNMENT, FISCAL               $401,843 UNRESOLVED              AND %2,3 10 UNRESOLVED
YEAR ENDED
SEPTEMBER 30, 1989 (2/4/91)      94-A-499 REPUBLIC OF             U.S. Virgin Islands
1 RECOMMENDATION AND             PALAU, FISCAL YEAR
$98,216 UNRESOLVED               ENDED SEPTEMBER 30,199l
                                                                  98-A-154 GOVERNMENT OF
                                 (44/h/94)
                                                                  THE VIRGIN ISLANDS,
94-A-521 STATE OF                11 RECOMMENDATIONS
                                                                  FISCAL YEAR ENDED
POHNPEI, FEDERATED               AND %517,693 UNRESOLVED
                                                                  SEPTEMBER 30,1994
STATES OF MICRONESIA,                                             (1212197)
FISCAL YEAR ENDED                94-A-882 REPUBLIC OF
                                                                  5 RECOMMENDATIONS
SEPTEMBER 30,1992                PALAU, FISCAL YEAR
                                                                  AND $632,247
(4119194)                        ENDED SEPTEMBER 30,1992
                                                                  UNRESOLVED
21 RECOMMENDATIONS               (6127194)
AND $2,764 UNRESOLVED            37 RECOMMENDATIONS
                                 AND $4,085 UNRESOLVED            NATIONAL. PARK
Yap
                                                                  SERVICE
                                 98-A-130 REPUBLIC OF
94-A-371 STATE OF YAP,           PALAU, FISCAL YEAR               97-A-1019 ILLINOIS
FEDERATEDSTATESOF                ENDED SEPTEMBER 30,1996          HISTORIC PRESERVATION
MICRONESIA, FISCAL YEAR          (11/19/97)                       AGENCY, 2 FISCAL YEARS
ENDED SEPTEMBER 30.1992          19 RECOMMENDATIONS               ENDED JUNE 30, 1996
(2125194)                        UNPESOLVED                       (7110197)
22 RECOMMENDATIONS                                                1 RECOMMENDATION
UNRESOLVED                                                        UNRESOLVED



46           Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
98-A-194 GEORGIA TRUST          97-A-993 VIRGINIA, FISCAL
FOR HISTORIC                    YEAR ENDED JUNE 30, 1995
PRESERVATION, INC.,             (818197)
FISCAL YEAR ENDED               2 RECOMMENDATIONS
MARCH 31, 1997 (12/24/97)       UNRESOLVED
2 RECOMMENDATIONS               (Unresolved recommendations
UNRESOLVED                      pertain to National Park
                                Service.)
98-A-229 NATIONAL
INSTITUTE FOR THE               97-A-1180 WISCONSIN,
CONSERVATION OF                 FISCAL YEAR ENDED
CULTURAL PROPERTY,              JUNE 30, 1995 (915197)
INC., FISCAL YEAR ENDED         3 RECOMMENDATTONS
DECEMBER 31,1996                AND $26,410 UNRESOLVED
(l/15/98)                       (Unresolved recommendations
1 RECOMMENDATION                pertain to National Park
UNRESOLVED                      Service.)

98-A-627 SOUTH                  97-A-1241 SOUTH
CAROLINA DEPARTMENT             CAROLINA, FISCAL YEAR
OF PARKS, RECREATION            ENDED JUNE 30,1996
AND TOURISM, FISCAL             (9/17/97)
YEAR ENDED JUNE 30, 1996        2 PJXOMMENDATTONS
(8/6/98)                        UNRESOLVED
9 RECOMMENDATIONS               (Unresolved recommendations
UNRESOLVED                      pertain to National Park
                                Service.)
98-A-687 NATIONAL
CONFERENCE OF STATE             98-A-148 NORTH
HISTORIC PRESERVATION           CAROLINA, FISCAL YEAR
OFFICERS, FISCAL YEAR           ENDED JUNE 30,1996
ENDED DECEMBER 31, 1997         (1212197)
(9125198)                       1 RECOMMENDATION
2 RECOMMENDATTONS               UNRESOLVED
UNRESOLVED
                                98-A-149 ARIZONA, FISCAL
U.S. FISH AND                   YEAR ENDED JUNE 30,1996
WILDLIFE SERVICE                (1212197)
                                1 RECOMMENDATION
97-A-843 NATIONAL               UNRESOLVED
TROPICAL BOTANICAL              (Unresolved recommendation
GARDEN, FISCAL YEAR             pertains to National Park
ENDED DECEMBER 31, 1995         Service.)
(5115197)
5 RECOMMENDATIONS
UNRESOLVED




             Semiannual Report to the Congress: October 1,1999 - March 31,200O   47
                                      APPENDIX 7

          SUMMARY OF INTERNAL REPORTS OVER 6 MONTHS
               OLD PENDING CORRECTIVE ACTION




BUREAU OF INDIAN                97-I-834 BUREAU OF lNDlAN         95-I-379 FOLLOWUF
AFFAIRS                         AFFAIRS CONSOLIDATED              OF RECOMMENDATIONS
                                FINANCIAL STATEMENTS              RELATING TO BUREAU OF
                                FOR FISCAL YEARS 1995             LAND MANAGEMENT USER
95-I-598 BUREAU OF              AND 1996 (519197)                 CHARGES FOR
INDIAN AFFAIRS                  1 RECOMMENDATION                  MINERAL-RELATED
PRINCIPAL FINANCIAL                                               DOCUMENT PROCESSING
STATEMENTS FOR FISCAL           98-I-483 FOLLOWUF OF              (l/23/95)
YEARS 1993 AND 1994             GENERAL CONTROLS OVER             2 RECOMMENDATIONS
(2128195)                       AUTOMATED
2 RECOMMENDATIONS               INFORMATION SYSTEMS,              95-I-747 RIGHT-OF-WAY
                                OPERATIONS SERVICE                GRANTS, BUREAU OF
95-I-1402 WAPATO                CENTER, BUREAU OF                 LAND MANAGEMENT
IRRIGATION PROJECT,             INDIAN AFFAIRS (6/10/98)          (3/31/95)
BUREAU OF INDIAN                5 RECOMMENDATIONS                 6 RECOMMENDATIONS
AFFAIRS (S/30/95)
2 RECOMMENDATIONS                                                 96-I-1265 OCCUPANCY
                                98-I-703 AGRICULTURAL
                                LEASING AND GRAZING               TRESPASS RESOLUTION,
96-I-641 REVIEW OF                                                BUREAU OF LAND
INDIAN lRRIGATlON               ACTIVITIES, FORT PECK
                                AGENCY, BUREAU OF                 MANAGEMENT (9130196)
PROJECTS, BUREAU OF                                               1 RECOMMENDATION
INDIAN AFFAIRS (3/29/96)        INDIAN AFFAIRS (g/30/98)
13 RECOMMENDATIONS              2 RECOMMENDATIONS
                                                                  97-I-1104 MANAGEMENT
                                BUREAU OF LAND                    OF HERD LEVELS, WILD
97-I-504 DIRECT AND                                               HORSE AND BURRO
GUARANTEED LOAN                 MANAGEMENT                        PROGRAM, BUREAU OF
PROGRAMS, EASTERN                                                 LAND MANAGEMENT
AREA OFFICE, BUREAU OF          92-I-828 ONSHORE                  (S/12/97)
INDIAN AFFAIRS (3/10/97)        GEOPHYSICAL                       2 RECOMMENDATIONS
1 RECOMMENDATION                EXPLORATION PROGRAM
                                (5126192)                         98-I-419 THE ADOPT-A-
7-I-771 GENERAL                 2 RECOMMENDATIONS                 HORSE PROGRAM, BUREAU
CONTROLS OVER                                                     OF LAND MANAGEMENT
AUTOMATED                                                         (4/30/98)
INFORMATION SYSTEMS,                                              3 RECOMMENDATIONS
OPERATIONS SERVICE
CENTER, BUREAU OF
INDIAN AFFAIRS (4/30/97)
6 RECOMMENDATIONS



48           Semiannual Report to the Congress: October 1, 1999 - March 31,200O
98-I-551 REIMBURSEMENT          95-I-870 RECREATION              99-I-627 OGLALA SIOUX
OF FIREFIGHTING COSTS,          MANAGEMENT ACTIVITIES            RURAL WATER SUPPLY
BUREAU OF LAND                  AT SELECTED SITES (5/17/95)      SYSTEM, MN1 WICONI
MANAGEMENT (7/27/98)            2 RECOMMENDATIONS                RURAL WATER SUPPLY
5 RECOMMENDATIONS                                                PROJECT, BUREAU OF
                                95-r-1204 FINANCIAL              RECLAMATION (6129199)
99-I-395 ADMINISTRATION         MANAGEMENT OF THE                4 RECOMMENDATIONS
OF REVENUES DUE FROM            COLUMBIA BASIN PROJECT,
HELIUM PRODUCED ON              PACIFIC NORTHWEST                INSULAR AREAS
FEDERAL LEASES, BUREAU          REGION (S/22/95)
OF LAND MANAGEMENT              1 RECOMMENDATION                 American Samoa
(3131199)
3 RECOMMENDATIONS               95-I-1376 FOLLOWUP OF
                                                                 96-I-533 AMEPJCAN
                                RECOVERY OF OPERATION            SAMOA LEGISLATURE,
99-I-677 RANGELANDS             AND MAINTENANCE
                                                                 AMERICAN SAMOA
IMPROVEMENT PROGRAM,            PROGRAM EXPENSES
                                                                 GOVERNMENT (3/22/96)
BUREAU OF LAND                  (9129195)
                                                                 7 RECOMMENDATIONS
MANAGEMENT                      I RECOMMENDATION
(7128199)
4 RECOMMENDATIONS               95-I-1383 RECOVERY OF
                                                                 Commonwealth of the
                                OPERATION AND                    Northern Mariana
99-l-808 CULTURAL               MAINTENANCE COSTS,               Islands
RESOURCE MANAGEMENT,            COLUMBIA BASIN PROJECT
BUREAU OF LAND                  (9129195)                        94-I-1323 UTILITIES RATE
MANAGEMENT (913199)             2 RECOMMENDATIONS                STRUCTURE,
4 RECOMMENDATIONS                                                COMMONWEALTH OF THE
                               96-I-313 AWARD AND                NORTHERN MARIANA
BUREAU OF                      ADMINISTRATION OF                 ISLANDS (g/30/94)
RECLAMATION                    CONTRACT                          3 RECOMMENDATIONS
                               NO. 1425-2-CC-40-12260
92-I-1128 REPAYMENT OF         WITH ENVIRONMENTAL                95-I-106 CONTRACTING
MUNICIPAL AND                  CHEMICAL CORPORATION              AND CONTRACT
INDUSTRIAL WATER               RELATED TO THE                    ADMINISTRATION,
SUPPLY INVESTMENT              SUMMITVILLE MINE SITE             COMMONWEALTH
COSTS (S/13/92)                CLEANUP, BUREAU OF                UTILITIES CORPORATION,
2 RECOMMENDATIONS              RECLAMATION (3/14/96)             COMMONWEALTH OF THE
                               1 RECOMMENDATION                  NORTHERN MARIANA
94-I-884 DEVELOPMENT                                             ISLANDS (1 l/14/94)
STATUS OF THE DOLORES          98-I-383 CENTRAL VALLEY           5 RECOMMENDATIONS
AND THE                        PROJECT RESTORATION
ANIMAS-LA PLATA                FUND, BUREAU OF                   99-I-356 DISCRETIONARY
PROJECTS (711 l/94)            RECLAMATION (3/31/98)             AND REPROGRAMMED
1 RECOMMENDATION               2 RECOMMENDATIONS                 FUNDS, OFFICE OF THE
                                                                 GOVERNOR,
94-I-930 IRRIGATION OF         99-I-133 IDENTIFICATION OF        COMMONWEALTH OF THE
INELIGIBLE LANDS               UNNEEDED ACQUIRED                 NORTHERN MARIANA
(7/l 1194)                     LANDS, BUREAU OF                  ISLANDS (3/26/99)
3 RECOMMENDATIONS              RECLAMATION (1212 l/98)           2 RECOMMENDATIONS
                               3 RECOMMENDATIONS
                                                                 Guam
                                                                 92-I-1360 GOVERNMENT
                                                                 OF GUAM RETIREMENT
                                                                 FUND (9/18/92)
                                                                 7 RECOMMENDATIONS

            Semiannual Report to the Congress: October 1,1999 - March 3 1,200O          49
98-I-335 PROGRAMS AND           94-I-248 PROPERTY                 MINERALS
OPERATIONS,                     MANAGEMENT FUNCTIONS,
DEPARTMENT OF
                                                                  MANAGEMENT
                                POLICE DEPARTMENT,
VOCATIONAL                      GOVERNMENT OF THE                 SERVICE
REHABILITATION,                 VIRGIN ISLANDS (l/24/94)
GOVERNMENT OF GUAM              1 RECOMMENDATION                  97-I-1042 ROYALTY
(3116198)                                                         MANAGEMENT
3 RECOMMENDATIONS               95-I-52 SELECTED                  PROGRAM’S AUTOMATED
                                ADMINISTRATIVE                    INFORMATION SYSTEMS,
98-I-570 ASSESSMENT             FUNCTIONS, ST. CROIX              MINERALS MANAGEMENT
AND COLLECTION OF               INTERIM HOSPITAL,                 SERVICE (7/3 l/97)
GROSS RECEIPTS TAXES,           GOVERNMENT OF THE                 1 RECOMMENDATION
DEPARTMENT OF                   VIRGIN ISLANDS (lo/3 l/94)
REVENUE AND TAXATION,           2 RECOMMENDATIONS                98-I-484 MINERALS
GOVERNMENT OF GUAM                                               MANAGEMENT SERVICE’S
(7117198)                       97-I-257 SMALL BUSINESS          WORK REGARDING
4 RECOMMENDATIONS               DEVELOPMENT AGENCY,              UNDERPRICING OF
                                GOVERNMENT OF THE                CALIFORNIA CRUDE OIL
98-I-643 OPERATIONAL            VIRGIN ISLANDS (l/15/97)         (6/10/98)
FUNDING STATUS,                 4 RECOMMENDATIONS                1 RECOMMENDATION
DEPARTMENT OF
EDUCATION,                      97-I-590 SUPPLEMENTAL            99-I-387 OPPORTUNITY TO
GOVERNMENT OF GUAM              FOOD PROGRAM FOR                 INCREASE OFFSHORE OIL
(8128198)                       WOMEN, INFANTS AND               AND GAS RENTAL
2 RECOMMENDATIONS               CHILDREN, DEPARTMENT             REVENUES, MINERALS
                                OF HEALTH, GOVERNMENT            MANAGEMENT SERVICE
Republic of Palau               OF THE VIRGIN ISLANDS            (3/3 l/99)
                                (3124197)                        2 RECOMMENDATIONS
92-I-1368 BILLINGS AND          1 RECOMMENDATION
                                                                 99-I-628 IMPLEMENTATION
COLLECTIONS OF THE
                                98-I-293 BUSINESS                OF RECOMMENDATIONS
REPUBLIC OF PALAU’S
GROSS REVENUE TAX               LICENSING FEES,                  FOR IMPROVING GENERAL
(9128192)                       DEPARTMENT OF                    CONTROLS OVER THE
3 RECOMMENDATIONS               LICENSING AND CONSUMER           AUTOMATED
                                AFFAIRS, GOVERNMENT OF           INFORMATION SYSTEM,
                                THE VIRGIN ISLANDS               ROYALTY MANAGEMENT
U.S. Virgin Islands                                              PROGRAM, MINERALS
                                (2127198)
                                3 RECOMMENDATIONS                MANAGEMENT SERVICE
91-I-1188 SECURITY AND                                           (719199)
MAINTENANCE OF                                                   1 RECOMMENDATION
CORRECTIONAL                    99-1-148 UNEMPLOYMENT
FACILITIES, GOVERNMENT          INSURANCE PROGRAM,
OF THE VIRGIN ISLANDS           DEPARTMENT OF LABOR,             MULTI-OFFICE
(8129191)                       GOVERNMENT OF THE
16 RECOMMENDATIONS              VIRGIN ISLANDS (12/18/98)        96-I-1255 SELECTED
                                9 RECOMMENDATIONS                ACTIVITIES OF THE
92-I-90 PRISON                                                   ROYALTY MANAGEMENT
OVERCROWDING, BUREAU           99-I-400 ACQUISITION              SYSTEM, MINERALS
OF CORRECTIONS (10/28/91)      AND CONTROL OF                    MANAGEMENT SERVICE
5 RECOMMENDATIONS              COMPUTERS, BUREAU OF              (9130196)
                               INTERNAL REVENUE,                 2 RECOMMENDATIONS
                               GOVERNMENT OF THE
                               VIRGIN ISLANDS (3/3 l/99)
                               6 RECOMMENDATIONS




50          Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
96-I-1267 INSPECTION AND      98-I-712 RECEIPT AND             97-I-1168 JUDGMENT
ENFORCEMENT PROGRAM           EXFENDITURE OF FUNDS             FUNDS AWARDED TO THE
AND SELECTED RELATED          BY THE UTAH                      NAVAJO NATION (9122197)
ACTIVITIES, BUREAU OF         RECLAMATION                      1 RECOMMENDATION
LAND MANAGEMENT               MITIGATION AND
(9/30/96)                     CONSERVATION                     97-I-1169 JUDGMENT
4 RECOMMENDATIONS             COMMISSION FOR FISCAL            FUNDS AWARDED TO THE
                              YEARS 1996 AND 1997              PAPAGO TRIBE OF
97-I-908 AUTOMATED LAW        (9/30/98)                        ARIZONA (9/15/97)
ENFORCEMENT SYSTEM,           7 RECOMMENDATIONS                2 RECOMMENDATIONS
NATIONAL PARR SERVICE
(6123197)                     99-I-381 ADDITIONAL              98-I-206 FINANCIAL
2 RECOMMENDATIONS             CONTROLS NEEDED FOR              STATEMENTS FOR FISCAL
                              THE DATA PROCESSING              YEAR 1996 FOR OFFICE OF
99-I-782 PROCESSING           ENVIRONMENT AT THE               THE SPECIAL TRUSTEE
NOTIFICATIONS FOR THE         U.S. GEOLOGICAL SURVEY           FOR AMERICAN INDIANS
STRIPPER OIL WELL             RESTON ENTERPRISE                TRIBAL, INDIVIDUAL
PROPERTY ROYALTY              DATA SERVICES CENTER             INDIAN MONIES AND
RATE REDUCTION                (3125199)                        OTHER SPECIAL TRUST
PROGRAM, MINERALS             12 RECOMMENDATIONS               FUNDS MANAGED BY THE
MANAGEMENT SERVICE                                             OFFICE OF TRUST FUNDS
(8/3 l/99)                    OFFICE OF SURFACE                MANAGEMENT (l/23/98)
1 RECOMMENDATION                                               12 RECOMMENDATIONS
                              MINING
NATIONAL PARK                 RECLAMATION AND
                                                               U.S. FISH AND
SERVICE                       ENFORCEMENT
                                                               WILDLIFE SERVICE
98-I-406 FOLLOWUP OF          97-I-1303 FEE COMPLIANCE
                              PROGRAM, OFFICE OF               9S-I-376 CONCESSION
RECOMMENDATIONS                                                FEES, U.S. FISH AND
CONCERNING UTILITY            SURFACE MINING
                              RECLAMATION AND                  WILDLIFE SERVICE
RATES IMPOSED BY THE                                           (1117195)
NATIONAL PARR SERVICE         ENFORCEMENT (9130197)
                              1 RECOMMENDATTON                 1 RECOMMENDATION
(4/15/98)
4 RECOMMENDATIONS                                              97-I-1112
                              OFFICE OF THE                    ADMINISTRATION OF
OFFICE OF THE                 SPECIAL TRUSTEE                  GRANTS AWARDED UNDER
SECRETARY                     FOR AMERICAN                     THE NORTH AMERICAN
                              INDIANS                          WETLANDS
97-I-683 MAINFRAME                                             CONSERVATION ACT,
COMPUTER POLICIES AND         97-I-196 STATEMENT OF            US. FISH AND WILDLIFE
PROCEDURES,                   ASSETS AND TRUST FUND            SERVICE (8/29/97)
ADMINISTRATIVE SERVICE        BALANCES AT                      1 RECOMMENDATION
CENTER, BUREAU OF             SEPTEMBER 30,1995, OF
RECLAMATION (313 l/97)        THE TRUST FUNDS                  97-I-1302 PARTNERS FOR
2 RECOMMENDATIONS             MANAGED BY THE OFFICE            WILDLIFE HABITAT
                              OF TRUST FUNDS                   RESTORATION PROGRAM,
98-I-623 FOLLOWUP OF          MANAGEMENT (12/13/96)            U.S. FISH AND WILDLIFE
MAINFRAME COMPUTER            16 RECOMMENDATIONS               SERVICE (9/29/97)
POLICIES AND                                                   4 RECOMMENDATIONS
PROCEDURES,                   97-I-1167 JUDGMENT FUNDS
ADMINISTRATIVE SERVICE        AWARDED TO THE TURTLE
CENTER, BUREAU OF             MOUNTAIN BAND OF
RECLAMATION (S/20/98)         CHIPPEWA INDIANS (9122197)
7 RECOMMENDATIONS             1 RECOMMENDATION


           Semiammal Report to the Congress: October 1,1999 - March 3 1,ZOOO         51
97-I-1305 AUTOMATED
LAW ENFORCEMENT
SYSTEM, U.S. FISH AND
WILDLIFE SERVICE
(9130197)
4 RECOMMENDATIONS

99-I-162 LAND
ACQUISITION ACTIVITIES,
US. FISH AND WILDLIFE
SERVICE (12/29/g@
6 RECOMMENDATIONS

U.S. GEOLOGICAL
SURVEY

97-I-927 U.S. GEOLOGICAL
SURVEY FINANCIAL
STATEMENTS FOR FISCAL
YEAR 1996 (6112197)
1 RECOMMENDATION

99-404 U.S. GEOLOGICAL
SURVEY FINANCIAL
STATEMENTS FOR FISCAL
YEARS 1998 AND 1997
(3/31/99)
2 RECOMMENDATIONS




52          Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
                                              APPENDIX 8
           STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES
The Inspector General Act of 1978 (Public Law 95-452) sets forth specific requirements for semiannual
reports to be made to the Secretary for transmittal to the Congress. A selectlon of other statutory and
administrative responsibilities and criminal and civil investigative authorities of the OIG follows:

                                    Statutory Audit Responsibilities

Statutory audit responsibilities include:

P.L.   96-510        Comprehenswe Environmental Response, Compensation and Liability Act of 1980
                       (Superfund)
P.L.   91-357        Insular Areas Act of 1982
P.L.   97-45 1       Federal Oil and Gas Royalty Management Act of 1982
P.L.   99-499        Superfund Amendments and Reauthorization Act of 1986
P.L.   101-576       Chief Financial Officers Act of 1990
P.L.   103-382       Improving American Schools Act of 1994
P.L.   104-208       Federal Financial Management Improvement Act of 1996
P.L.   104-316       General Accounting Office Act of 1996, Section 108, “To Require DOI-OIG
                      To Audit the Central Utah Project Cost Allocation”
P.L. 105-277         Office of National Drug Control Policy Reauthorization Act of 1998
P.L. 104-156         Single Audit Act of 1996

                                    Administrative Responsibilities

Office of Management and Budget circulars and bulletins:

       A-50          “Audit Followup”
       A-81          “Cost Principles for State and Local Government”
       A-123         “Management Accountability and Control”
       A-131         “Value Engineering”
       A-133         “Audits of States, Local Governments, and Non-Profit Organizations”
       97-01         “Form and Content of Agency Financial Statements” (Bulletin)
       98-08         “Audit Requirements for Federal Financial Statements” (Bulletin)

                            Criminal and Civil Investigative Authorities

Criminal investigative authorities include:

       - Title 18, United States Code, section on crime and criminal procedures as they pertain to OIG’s
          oversight of DOI programs and employee misconduct.

Civil and administrative investigative authorities include civil monetarv oenaltv authorities such as:

       - Title 31, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.
       - Title 31, United States Code, Section 3729-3733, the False Claims Act.



                 Semiannual Report to the Congress: October 1,1999 - March 3 1,200O                        53
                                         APPENDIX 9

        CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT

Inspector General Act. as amended

Section 4(a)(2)          Review of Legislation and Regulations                      N/A*

Section 5(a)(l)          Significant Problems, Abuses, and Deficiencies              4-18

Section S(a)(2)          Recommendations With Respect to Significant Problems,       4-18
                         Abuses, and Deficiencies

Section 5(a)(3)          Summary of Audits From Agency’s Previous Report on         48-52
                         Which Corrective Action Has Not Been Completed

Section 5(a)(4)          Matters Referred to Prosecutive Authorities                   111

Section 5(a)(5)          Summary of Instances Where Information Was Refused         N/A*

Section 5(a)(6)          List of Audit Reports                                      20-34

Section 5(a)(7)          Summary of Significant Reports                              4-18

Section 5(a)(8)          Statistical Table - Questioned Costs                          35

Section 5(a)(9)          Statistical Table - Recommendations That Funds Be             38
                         Put To Better Use

Section 5(a)(lO)        Summary of Audit Reports Issued Before the                  40-47
                        Commencement of the Reporting Period for Which
                        No Management Decision Has Been Made

Section 5(a)(ll)         Significant Revised Management Decisions Made              N/A*
                         During the Reporting Period

Section 5(a)(12)         Management Decisions With Which the                        N/A*
                         Inspector General Is in Disagreement

Section 5(a)(13)         Information Described Under Section 05(b) of the Federal   N/A*
                         Financial Management Improvement Act of 1996




*N/A: Not applicable




54             Semiannual Report to the Congress: October 1,1999 - March 3 1,200O
                       GENERAL INFORMATION

Send Requests for Publications to:

 U.S. Department of the Interior     (202) 208-4599
 Office of Inspector General
 1849 C Street, NW
 Mail Stop 5341, ME3
 Washington, D.C. 20240


 Facsimile Number:                   (202) 208-4998


 World Wide Web Site:                www.oig.doi.gov




 HOTLINE

 Toll Free Numbers:                  l-800-424-5081
                                     TDD l-800-354-0996


FTS/Commercial Numbers:              (202) 208-5300
                                     TDD (202) 208-2420
Address:                             U.S. Department of the Interior
                                     Office of Inspector General
                                     1849 C Street, NW
                                     Mail Stop 5341, MIB
                                     Washington, D.C. 20240
                      ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                      THE OFFICE OF INSPECTOR GENERAL


                             Internet/E-Mail Address
                                    www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                        Our 24.hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W., Mail Stop 5341                    l-800-424-508 1 or
Washington, D.C. 20240                                 (202) 208-5300

                                                       TDD for hearing impaired
                                                       (202) 208-2420



                     Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                      Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
